United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

APPENDIX A
974 F.3d 320
United States Court of Appeals, Third Circuit.
UNITED STATES of America
v.
Jabree WILLIAMS, a/k/a ―Minute‖,
Rolando Cruz, Jr.,
Marc Hernandez, a/k/a Marky D.,
Roscoe Villega,
Eugene Rice, also known as ―B Mor‖,
Douglas Kelly,
Angel Schueg, a/k/a ―Pocko‖,
Maurice Atkinson,
Anthony Sistrunk a/k/a ―Kanye‖,
Tyree Eatmon, a/k/a Ree.
Nos. 17-2111, 17-3191, 17-3373, 17-3586, 17-3711,
17-3777, 18-1012, 18-1324, 18-2468 and 19-1037
|Argued December 10, 2019
|(Filed: September 10, 2020)
*334 On Appeal from the United States District Court for the Middle District of
Pennsylvania (D. C. Nos. 1-14-cr-00070-017:1-14-cr-0070-004; 1-14-cr-0070-001; 1-14-cr00070-003; 1-14-cr-00070-011; 1-14-cr-0070- 002; 1-14-cr-00070-012; 1-14-cr-00070-008;
1-14-cr- 00070-009; 1-14-cr-00070-006),
District Judge: Honorable Yvette Kane
Before: RESTREPO, ROTH and FISHER, Circuit Judges.
OPINION OF THE COURT
FISHER, Circuit Judge.
*335 In mid-September 2014, a federal grand jury in the U.S. District Court for the
Middle District of Pennsylvania returned an indictment of twenty-one men from the
South Side neighborhood of York, Pennsylvania. All twenty-one were charged on counts
of racketeering conspiracy, drug-trafficking conspiracy, and drug trafficking. Four were
also variously charged with federal firearms offenses related to the alleged trafficking.
Although so called because of its geographic location in the city, South Side, the
indictment alleged, had constituted since 2002 the identity of a criminal enterprise
associated through its upper echelons with the Bloods, a national street gang. At the
1a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

heart of the enterprise, it was said, lay an extensive drug-trafficking operation,
conducted across a defined territory and nurtured in part through sporadic episodes of
occasionally deadly violence involving rival gangs, gang affiliates, and, collaterally,
members of the general public.
Over the course of the ensuing year, several of the defendants pleaded guilty. Twelve,
however, proceeded to a joint trial, held over eight weeks from September to November
2015. The jury heard from well over one hundred witnesses, including some of the
original twenty-one who chose to cooperate with the Government in the hope of a
reduced sentence. The picture that emerged was of lives characterized by cycles of crime
and incarceration, stretching across more than a decade and punctuated by moments of
significant and sometimes reckless violence. The witnesses depicted widespread drug
dealing in crack cocaine and heroin. They told of territorial rivalries, market
competition, and personal feuds. They recounted episodes of threat and retaliation,
attack and retribution. But they also described friendship, loyalty, and loss; pride and
fear; ambition, and great ability left unrealized. In the end, all twelve defendants were
convicted on one or more of the charges against them, and in the years thereafter were
sentenced to, among other things, terms of imprisonment ranging from sixty months to
life.
Ten of the twelve (the Defendants) now appeal their convictions and sentences on a
variety of grounds, advanced both severally and collectively. These issues, which span
more or less all the relevant phases of a criminal prosecution, can be divided *336 into
five categories. First, most of the Defendants contend that because the District Court‘s
closure of the courtroom to the public during jury selection violated their Sixth
Amendment right to a public trial, their convictions should be reversed and a new trial
ordered under Federal Rule of Criminal Procedure 52(b). Second, two Defendants claim
that the District Court‘s in camera disposition of a challenge under Batson v. Kentucky,
476 U.S. 79, 106 S.Ct. 1712, 90 L.Ed.2d 69 (1986), both violated their constitutional
right to personal presence at all critical phases of their criminal trial and was
sufficiently prejudicial to warrant reversal of their convictions. Third, several
Defendants bring evidentiary challenges. Two appeal the District Court‘s denial of their
motions to suppress evidence collected from their residences pursuant to search
warrants. Still more Defendants assert various errors regarding the admission and use
of evidence at trial. Fourth, nearly all the Defendants contend that the evidence was
insufficient to support one or more of the verdicts against them. These challenges ask
us to clarify, among other things, the effect of our recent decision in United States v.
Rowe, 919 F.3d 752 (3d Cir. 2019)—and thereby of the Supreme Court‘s decision in
Alleyne v. United States, 570 U.S. 99, 133 S.Ct. 2151, 186 L.Ed.2d 314 (2013)—upon our
case law regarding the elements of a drug-trafficking conspiracy under 21 U.S.C. § 846.
Finally, all the Defendants appeal their sentences, principally alleging procedural
defects in the District Court‘s judgments.
2a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

For the reasons that follow, we will affirm the Defendants‘ judgments of conviction. We
will also affirm the judgments of sentence of Jabree Williams and Eugene Rice. But we
will vacate either in whole or in part the other Defendants‘ judgments of sentence, and
remand the cases of Marc Hernandez and Angel Schueg for resentencing proceedings
consistent with this opinion.
I. Background
A. Investigation and Indictment
These cases began with an act of cooperative federalism.1 At the initiation of, and
together with, local law enforcement, the federal Bureau of Alcohol, Tobacco, Firearms
and Explosives (ATF) conducted a multiyear investigation into drug trafficking and
violence in the city of York, Pennsylvania. The investigation centered on what the
Government called ―the Southside Gang,‖ after the neighborhood in which it was said to
operate. Over the first decade of the current century, York law enforcement officials
perceived in the city a pattern of escalating violence that they attributed primarily to a
rivalry between the South Side and Parkway, another supposed gang, named for a
public housing project in the northern part of York. The Government associated this
violence, which also occasionally involved other neighborhood groups, with the
widespread drug trafficking throughout the South Side. It was believed that the
principal sources of these drugs—and concomitantly of the increased violence—were
individuals affiliated with the Bloods, who had developed the South Side‘s existing drug
trafficking into a more organized operation.
1

We provide here a broad overview of
the cases‘ factual and procedural
background, with particular attention
to the five categories of issues
described above. More detailed factual
description will be provided where
relevant in Parts II-VI below.

Legal proceedings began in mid-March 2014, when a grand jury in the Middle District
of Pennsylvania returned an indictment of three men, Hernandez, Roscoe Villega, and
Douglas Kelly, charging them on counts of drug-trafficking conspiracy and drug
trafficking. Shortly thereafter, *337 government officials obtained and executed search
warrants for several locations across York, seizing (among other things) drugs, drug
paraphernalia, cellphones, and money. Some of this evidence, as well as some seized
later, became the subject of an ongoing contest between the parties. Hernandez, Villega,
and Kelly all pleaded not guilty, but before they could proceed to trial, a superseding
indictment added Rolando Cruz, Jr. to the list of defendants and supplemented the drug
counts with two federal firearms charges. Cruz also pleaded not guilty, but yet again,
3a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

before a trial could occur, matters developed further.
In September, the grand jury returned a second superseding indictment that vastly
expanded the scope and ambition of the prosecution. The indictment now listed twentyone defendants, including the original four. It charged all twenty-one on three counts:
(I) conspiracy to violate 18 U.S.C. § 1962(c) of the Racketeer Influenced and Corrupt
Organizations Act (RICO), 18 U.S.C. § 1962(d); (II) conspiracy to distribute a controlled
substance, 21 U.S.C. § 846; and (III) distribution of a controlled substance, 21 U.S.C. §
841(a). Counts II and III specified drug quantities of 5 kilograms or more of powder
cocaine, and 280 grams or more of crack cocaine.2 Distribution at these quantities
carries increased penalties. See 21 U.S.C. § 841(b)(1)(A). The indictment also included
vestiges of its earlier iterations: three additional firearms charges against Cruz,
Hernandez, Villega, and Kelly. Counts IV and V variously charged Hernandez and Cruz
with the use of a firearm in relation to or in furtherance of a drug-trafficking crime, 18
U.S.C. § 924(c).3 And Count VI charged Cruz, Hernandez, Villega, and Kelly 4 under 18
U.S.C. § 924(o)—conspiracy to violate § 924(c).
2

The statutory term ―cocaine base,‖ 21
U.S.C. § 841(b)(1)(A)(iii), (b)(1)(B)(iii),
encompasses but is not limited to crack
cocaine, covering all forms of ―cocaine
in its chemically basic form.‖ DePierre
v. United States, 564 U.S. 70, 89, 131
S.Ct. 2225, 180 L.Ed.2d 114 (2011).
Because we are concerned here
specifically with crack, however, we
will refer simply to it.

3

The District Court later dismissed
Count IV on the Government‘s motion
at the conclusion of its case in chief.

4

Also on the Government‘s motion at the
end of its case in chief, the District
Court dismissed Count VI as to Villega
and Kelly.

B. Jury Selection
One year later, in September 2015, twelve of the twenty-one defendants proceeded to a
consolidated trial before the Honorable Yvette Kane. On Friday, September 18, with
jury selection set to begin the following Monday, the District Court issued a series of
orders related to the upcoming voir dire. See D. Ct. Dkt. Nos. 733-40. One such order
4a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

stated:
AND NOW, on this 18th day of September, 2015, IT IS HEREBY ORDERED THAT
due to courtroom capacity limitations, only (1) court personnel, (2) defendants, (3)
trial counsel and support staff, and (4) prospective jurors shall be allowed in the
courtroom during jury selection. No other individuals will be present except by
express authorization of the Court.
App. 10.5 Other than the concern with ―courtroom capacity limitations,‖ there is no
further indication in the record of the District Court‘s rationale for conditionally barring
the public from the jury-selection proceedings. There is also no evidence of *338 an
objection to the order by either the prosecution or the defense, nor is there any evidence
of a news organization or other member of the public either seeking the District Court‘s
―express authorization‖ or being turned away by court officials after attempting to
attend the proceedings.
5

All references to the Appendix
simpliciter are to three consecutively
paginated appendices: Volumes I and II
of the Hernandez Appendix (pages 1295), the Government‘s Supplemental
Appendix in Rice‘s case (pages 2966902), and the Villega Appendix (pages
6903-7018).

Jury selection lasted for two days, concluding on Tuesday, September 22. During the
process, Cruz‘s trial counsel, Michael Wiseman, brought a Batson challenge to the
Government‘s first peremptory strike of a prospective juror. The District Court heard
the objection in chambers rather than in the courtroom itself, announcing its decision to
do so in open court. The District Court ultimately ruled that the Government‘s strike
was not motivated by purposeful discrimination. After the hearing, several defense
counsel, led by John Yaninek, counsel for Maurice Atkinson, objected to the District
Court‘s decision to hear the challenge out of open court. The District Court provided a
detailed description of the hearing and the reasons for its ruling, and Yaninek pursued
the objection no further at the time. All defense counsel thereafter professed themselves
satisfied with the jury members, who were duly sworn.
The trial commenced the next day, September 23, 2015. It appears that all other
proceedings were open to the public.
C. Trial
The Government‘s theory was that the defendants‘ identification with the South Side
constituted a continuing, willful participation in a criminal enterprise. The defense
generally countered that, despite the illegal activity that undoubtedly occurred,
5a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

expressions of a South Side identity reflected at most a kind of autochthonous pride, a
loyalty borne of a common home, and did not amount to the existence of a South Side
gang or criminal organization.
Witnesses depicted widespread drug trafficking that was organized, or at least
differentiated, according to street blocks. Each block had a group, or ―crew,‖ of
individuals who would ―affiliate with each other,‖ chiefly through selling drugs, and in
particular crack cocaine. App. 1523. Some crews‘ operations were more organized or
structured, but a person from any of the crews could, without incident, sell drugs
throughout the South Side. The most prominent of these groups was located at Maple
and Duke Streets, near what was called the Jungle—an area formed by four streets,
George, Queen, South, and Maple, with Duke running through it. The Maple and Duke
crew was said to be made up largely of an older generation of South Side drug dealers.
At various points, witnesses associated Rice, Schueg, Atkinson, Anthony Sistrunk, and
Tyree Eatmon with Maple and Duke, while Williams was said to be part of another
crew, Maple and Manor. By contrast, witnesses described Cruz, Hernandez, and Kelly
as principally distributors of crack to street-level dealers. Villega was identified as an
associate of Cruz and Hernandez who dealt in crack and heroin.
Together with the descriptions of drug trafficking were accounts of episodic violence.
Members of the crews would carry or store away firearms for protection, and they would
often retaliate when a fellow South Side member was attacked. These episodes
frequently involved individuals from Parkway, who were described as rivals, but also
occasionally other persons. Witnesses recalled, among other incidents, reprisals for the
wanton killing of a nine-year-old girl, Ciara Savage, on Mother‘s Day in 2009, a violent
altercation between South Side and Parkway members at a gas station and store named
Rutter‘s, and the severe beating and eventual murder of a man in the parking lot of a
York restaurant *339 called MoMo‘s. Such episodes, the Government charged, were
overt acts in furtherance of the criminal enterprise, reflecting among other things the
preservation of territory and reputation. In general, the defense sought to present these
acts of violence as the product of personal feuds, rather than as indicative of a
commitment to a larger operation.
D. Verdicts and Sentencing
The jury returned its verdicts on November 16, 2015, announcing them seriatim, with
only the relevant defendant present. All twelve defendants were found guilty on one or
more of the counts against them. They were subsequently sentenced to various periods
of incarceration and ordered to pay certain fines and costs.
The convictions and sentences of imprisonment of the ten Defendants who have
appealed to our Court are as follows:
• Williams: Convicted on Count III; sentenced to 60 months of imprisonment.6
6a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

• Cruz: Convicted on Counts I, II, III, V, and VI; sentenced to life terms of
imprisonment on Counts I-III, 5 years on Count V, and 20 years on Count VI. The
terms on Counts I-III and VI are concurrent; the term on Count V is consecutive to
those sentences.
• Hernandez: Convicted on Counts I, II, III, V, and VI; sentenced to life terms of
imprisonment on Counts I-III, 20 years on Count VI, and 60 months on Count V.
The terms on Counts I-III and VI are concurrent; the term on Count V is consecutive
to the other sentences.
• Villega: Convicted on Counts I, II, and III; sentenced to 300 months in prison on
each count, to be served concurrently.
• Rice: Convicted on Counts II and III; sentenced to 200 months in prison on each
count, to be served concurrently.
• Kelly: Convicted on Counts I, II, and III; sentenced to life terms of imprisonment
on each count, to be served concurrently.
• Schueg: Convicted on Counts II and III; sentenced to 165 months in prison on each
count, to be served concurrently.
• Atkinson: Convicted on Counts I, II, and III; sentenced to life terms of
imprisonment on each count, to be served concurrently.
• Sistrunk: Convicted on Counts I, II, and III; sentenced to 360 months in prison on
each count, to be served concurrently.
• Eatmon: Convicted on Counts I, II, and III; sentenced to 260 months in prison on
each count, to be served concurrently.
On appeal, these Defendants raise numerous issues, described above, touching their
convictions and sentences.7 We have jurisdiction *340 to resolve these issues under 28
U.S.C. § 1291 and 18 U.S.C. § 3742(a).8
6

7

Williams‘s conviction on Count III was
for 28-280 grams of crack cocaine and
some marijuana.
While these appeals were pending, on
several occasions our Clerk‘s Office
encouraged the Defendants to adopt,
pursuant to Federal Rule of Appellate
Procedure 28(i), portions of alreadyfiled briefs rather than raise and argue
duplicative issues. We appreciate that
the
Defendants
followed
those
7a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

suggestions, but we have also made
clear that general statements of
adoption under Rule 28(i) will not be
regarded. We will not serve as a
Defendant‘s lawyer, ―scour[ing] the
record‖ for him and determining ―which
of the many issues of his codefendants
[are] worthy of our consideration.‖
United States v. Fattah, 914 F.3d 112,
146 n.9 (3d Cir. 2019). We will resolve
only those issues specifically and
explicitly identified by each Defendant,
noting where relevant a Rule 28(i)
adoption.
All
else
results
in
―abandonment and waiver.‖ Id.
8

The District Court had jurisdiction
under 18 U.S.C. § 3231.

II. The Public-Trial Error
We begin with the District Court‘s closure of the courtroom to the public during jury
selection. Because a ruling for the Defendants on this issue would entail a reversal of
their convictions and remand for a new trial, we confront this question at the outset.
For the reasons that follow, we will not exercise our discretion to correct the error.
A. Our Review Is for Plain Error
Review of a constitutional error of criminal procedure is at bottom a matter of rights
and remedies: whether a constitutional right has been violated, and whether a remedy
shall be provided for that violation. The District Court‘s closure of the courtroom
undoubtedly violated the Defendants‘ Sixth Amendment right to public trial, Presley v.
Georgia, 558 U.S. 209, 213, 130 S.Ct. 721, 175 L.Ed.2d 675 (2010) (per curiam), and
under Supreme Court precedent that sort of violation is a ―structural‖ error, see Arizona
v. Fulminante, 499 U.S. 279, 310, 111 S.Ct. 1246, 113 L.Ed.2d 302 (1991) (citing Waller
v. Georgia, 467 U.S. 39, 49 n.9, 104 S.Ct. 2210, 81 L.Ed.2d 31 (1984)). Ordinarily
contrasted with constitutional errors subject to ―harmless-error analysis,‖ Fulminante,
499 U.S. at 306, 111 S.Ct. 1246, this category represents ―a limited class of fundamental
constitutional errors that,‖ Neder v. United States, 527 U.S. 1, 7, 119 S.Ct. 1827, 144
L.Ed.2d 35 (1999), by their very nature, ―affect substantial rights‖ and so cannot be
―disregarded,‖ Fed. R. Crim. P. 52(a). As a result, in determining the availability of a
remedy, no further inquiry may be necessary beyond the fact of the violation itself: the
injured parties are entitled to ―automatic reversal.‖ Neder, 527 U.S. at 7, 119 S.Ct.
8a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

1827.
Yet the Federal Rules of Criminal Procedure also distinguish between preserved and
unpreserved errors. A party can invoke Rule 52(a) on appeal only if he timely objected
to the error, thus giving the district court the opportunity to rectify, or at least respond
to, the purported problem. See Fed. R. Crim. P. 51(b) (describing the procedure for
contemporaneous objection). If the Defendants had done so here, and the District Court
responded inadequately, then they would indeed be entitled to a new trial. But they did
not object; and regardless of the nature of the error, in direct appeals from judgments of
conviction in the federal system, when there is no contemporaneous objection in the
district court, our review must be for plain error under Federal Rule of Criminal
Procedure 52(b). Johnson v. United States, 520 U.S. 461, 466, 117 S.Ct. 1544, 137
L.Ed.2d 718 (1997).
A federal appellate court‘s authority to remedy an unpreserved error ―is strictly
circumscribed.‖ Puckett v. United States, 556 U.S. 129, 134, 129 S.Ct. 1423, 173 L.Ed.2d
266 (2009). Following the text of Rule 52(b), the Supreme Court has described a fourpart inquiry for plain-error review. There must: (1) be an ―error‖ that (2) is ―plain‖ and
(3) ―affects substantial rights.‖ United States v. Olano, 507 U.S. 725, 732, 113 S.Ct.
1770, 123 L.Ed.2d 508 (1993) (alteration omitted) (quoting Fed. R. Crim. P. 52(b)). If
these three conditions are satisfied, then it is ―within the sound discretion of the court
of appeals‖ to correct the forfeited error—but only if (4) ―the error ‗seriously affects the
fairness, integrity or public reputation of judicial proceedings.‘ ‖ Id. (alteration omitted)
(quoting United States v. Young, 470 U.S. 1, 15, 105 S.Ct. 1038, 84 L.Ed.2d 1 (1985)).
*341 ―Meeting all four prongs is difficult, as it should be.‖ Puckett, 556 U.S. at 135, 129
S.Ct. 1423 (internal quotation marks omitted). In this appeal, the Government concedes
that the District Court committed an error, and that the error is plain. The dispute
concerns Olano‘s third and fourth prongs.
B. Olano Prong Three
―[I]n most cases,‖ for an unpreserved error to affect substantial rights it ―must have
been prejudicial‖—that is, ―[i]t must have affected the outcome of the district court
proceedings.‖ Olano, 507 U.S. at 734, 113 S.Ct. 1770. The defendant ordinarily has the
burden of showing ―a reasonable probability that, but for the error claimed, the result of
the proceeding would have been different.‖ United States v. Dominguez Benitez, 542
U.S. 74, 82, 124 S.Ct. 2333, 159 L.Ed.2d 157 (2004) (alteration omitted) (quoting United
States v. Bagley, 473 U.S. 667, 682, 105 S.Ct. 3375, 87 L.Ed.2d 481 (1985) (opinion of
Blackmun, J.)). However, the Court in Olano also acknowledged that ―[t]here may be a
special category of forfeited errors that can be corrected regardless of their effect on the
outcome.‖ 507 U.S. at 735, 113 S.Ct. 1770. Hernandez urges us not only to associate this
―special category‖ with structural error, but also to give the error here the same effect it
would have in the Rule 52(a) context—automatic reversal of the convictions. We cannot
9a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

accept this argument.
The Supreme Court has never held that Olano‘s ―special category‖ includes or is the
same as that of structural error. It therefore remains at least unclear whether a
structural error ipso facto satisfies Olano‘s third prong. The Court has consistently
acknowledged but declined to address this possibility. See United States v. Marcus, 560
U.S. 258, 263, 130 S.Ct. 2159, 176 L.Ed.2d 1012 (2010); Puckett, 556 U.S. at 140-41, 129
S.Ct. 1423; United States v. Cotton, 535 U.S. 625, 632-33, 122 S.Ct. 1781, 152 L.Ed.2d
860 (2002); Johnson, 520 U.S. at 469, 117 S.Ct. 1544; see also Dominguez Benitez, 542
U.S. at 82, 124 S.Ct. 2333 (suggesting that Olano‘s third prong should be treated as ―[
]tethered to a prejudice requirement‖ in cases of ―nonstructural error‖). We too find it
unnecessary to take that doctrinal leap here. Because, as detailed below, a federal
appellate court‘s evaluation of Olano‘s fourth prong is independent of whether the third
has been satisfied, and the District Court‘s error in this case did not ―seriously affect
the fairness, integrity or public reputation of judicial proceedings,‖ Olano, 507 U.S. at
736, 113 S.Ct. 1770, we do not need to decide whether the error also affected the
Defendants‘ substantial rights.9
9

Our
dissenting
colleague
would
presume prejudice given the nature of
the error at issue here. See Dissenting
Op. at III.A. We emphasize that in
declining to conduct an inquiry at
prong three, we intend no suggestion
that the present error, or any
structural error, does not warrant a
presumption
of
prejudice.
Our
conclusion at prong four simply renders
a decision on that question unnecessary, and we will not go out of our
way to make new law. The dissent, by
contrast, must address prong three
because of its contrary conclusion at
prong four.

C. Olano Prong Four
1. Structural Error Generally
The fact that a type of error has been deemed ―structural‖ has no independent
significance for applying Olano‘s fourth prong. In all direct appeals arising in the
federal system, ―the seriousness of the error claimed does not remove consideration of it
from the ambit of the Federal Rules of Criminal Procedure.‖ Johnson, 520 U.S. at 466,
117 S.Ct. 1544. Rule 52(b) states that a court ―may‖ consider ―[a] plain error that affects
10a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

substantial rights.‖ If Olano‘s first three prongs are satisfied, the court of appeals has
the ―authority‖ to *342 notice the error, ―but is not required to do so.‖ Olano, 507 U.S. at
735, 113 S.Ct. 1770. ―[A] plain error affecting substantial rights does not, without more,
satisfy‖ Olano‘s fourth prong. Id. at 737, 113 S.Ct. 1770. Thus, even if we accepted that
a structural error necessarily affects substantial rights, our decision would still be an
exercise of discretion, calling for an independent inquiry on the fourth prong.10
10

It is true, as Hernandez points out,
that our Court has in the past
―assume[d]‖ in dictum that a structural
error ―would constitute per se reversible error even under plain error
review.‖ United States v. Syme, 276
F.3d 131, 155 n.10 (3d Cir. 2002). Yet
we are not bound by that statement,
and it is in any event contrary to the
Supreme Court guidance just detailed.

Nevertheless, although a structural error is not to be given automatic effect in the Rule
52(b) context, the same considerations that in other contexts render its correction
automatic may coincide with the appropriate exercise of judicial discretion to notice an
unpreserved error. A structural defect is an error ―affecting the framework within
which the trial proceeds, rather than simply an error in the trial process itself.‖
Fulminante, 499 U.S. at 310, 111 S.Ct. 1246. When such an error occurs over a
contemporaneous objection, the trial ―cannot reliably serve its function as a vehicle for
determination of guilt or innocence, and no criminal punishment may be regarded as
fundamentally fair.‖ Id. (quoting Rose v. Clark, 478 U.S. 570, 577-78, 106 S.Ct. 3101, 92
L.Ed.2d 460 (1986)). The origins of Rule 52(b) lie in the recognition that ―if a plain error
was committed in a matter so absolutely vital to defendants,‖ the reviewing court is ―at
liberty to correct it.‖ Wiborg v. United States, 163 U.S. 632, 658, 16 S.Ct. 1127, 41 L.Ed.
289 (1896). When the error threatens ―the fair and impartial conduct of the trial,‖ the
fact that it was not raised contemporaneously ―does not preclude [the appellate court]
from correcting [it].‖ Brasfield v. United States, 272 U.S. 448, 450, 47 S.Ct. 135, 71
L.Ed. 345 (1926). As the Supreme Court said in its most recent case on this issue, ―the
public legitimacy of our justice system relies on procedures that are neutral, accurate,
consistent, trustworthy, and fair, and that provide opportunities for error correction.‖
Rosales-Mireles v. United States, ––– U.S. ––––, 138 S. Ct. 1897, 1908, 201 L.Ed.2d 376
(2018) (internal quotation marks omitted).
Therefore, even when confronting a structural error, a federal court of appeals should
evaluate the error in the context of the unique circumstances of the proceeding as a
whole to determine whether the error warrants remedial action. See id. at 1909 (―[A]ny
exercise of discretion at the fourth prong of Olano inherently requires ‗a case-specific
and fact-intensive‘ inquiry.‖ (quoting Puckett, 556 U.S. at 142, 129 S.Ct. 1423)). The
11a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

very nature of the error may warrant a remedy in the ordinary case, id. at 1909 n.4, and
actual innocence is dispositive, Olano, 507 U.S. at 736, 113 S.Ct. 1770, but these are not
the same as automatic reversal. In all direct appeals from a criminal conviction in the
federal system, the discretion contemplated by Rule 52(b) is to be preserved.
2. Public-Trial Error Specifically
This conclusion receives additional support from our own and the Supreme Court‘s case
law on violations of the Sixth Amendment right to a public trial.
The presence of a contemporaneous objection is an important reason why violations of
that right were deemed structural error. As early as 1949—in a case, like the present
ones, from the Middle District of Pennsylvania—our Court reversed a criminal
conviction and remanded for a new trial due to a Sixth Amendment public-trial *343
violation. United States v. Kobli, 172 F.2d 919, 924 (3d Cir. 1949) (en banc). In doing so,
we held ―that the Sixth Amendment precludes the general indiscriminate exclusion of
the public from the trial of a criminal case in a federal court over the objection of the
defendant.‖ Id. at 923 (emphasis added). Further, in a later case we maintained that ―a
defendant who invokes the constitutional guarantee of a public trial need not prove
actual prejudice‖ on appeal. United States ex rel. Bennett v. Rundle, 419 F.2d 599, 608
(3d Cir. 1969) (en banc).
The Supreme Court has expressed similar sentiments. Like Rundle, Waller concerned a
Sixth Amendment challenge to a state trial court‘s closure of a suppression hearing.
Under its First Amendment precedent, the Court noted, ―the right to an open trial‖ is
generally, but not absolutely, paramount. Waller, 467 U.S. at 45, 104 S.Ct. 2210 (citing,
e.g., Press-Enterprise Co. v. Superior Court, 464 U.S. 501, 104 S.Ct. 819, 78 L.Ed.2d 629
(1984)). To justify a closure, there must be ―an overriding interest that is likely to be
prejudiced, the closure must be no broader than necessary to protect that interest, the
trial court must consider reasonable alternatives to closing the proceeding, and it must
make findings adequate to support the closure.‖ Id. at 48, 104 S.Ct. 2210. Waller
extended this framework to the Sixth Amendment, holding ―that under the Sixth
Amendment any closure of a suppression hearing over the objections of the accused must
meet the tests set out in Press-Enterprise and its predecessors.‖ Id. at 47, 104 S.Ct.
2210 (emphasis added). The Court later applied this standard to a state court‘s closure
of jury selection to the public. Presley, 558 U.S. at 213, 130 S.Ct. 721. As in Waller,
defense counsel had objected contemporaneously. Id. at 210, 130 S.Ct. 721. Under these
cases, then, a violation of the right to a public trial is a reversible error when a party
lodges a contemporaneous objection and the trial court fails to articulate the interest
behind the closure or to make the appropriate findings.
The Supreme Court‘s first consideration of a Sixth Amendment public-trial violation in
the absence of a contemporaneous objection came in Weaver v. Massachusetts, ––– U.S.
12a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

––––, 137 S. Ct. 1899, 198 L.Ed.2d 420 (2017). Yet that case arose not under Rule 52(b),
but rather in a state collateral proceeding, on a claim of ineffective assistance of
counsel. The Court held that, in this context, the proper standard to apply is the
familiar one under Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d
674 (1984). See 137 S. Ct. at 1910-12. While the Sixth Amendment public-trial right ―is
important for fundamental reasons,‖ the Court explained, ―in some cases an unlawful
closure might take place and yet the trial still will be fundamentally fair from the
defendant‘s standpoint.‖ Id. at 1910. This reality underlines the importance of a
contemporaneous objection, which gives the trial court ―the chance to cure the violation
either by opening the courtroom or by explaining the reasons for closure.‖ Id. at 1912.
The Court also noted that ―when state or federal courts adjudicate errors objected to
during trial and then raised on direct review, the systemic costs of remedying the error
are diminished to some extent.‖ Id. By contrast, an ineffective-assistance-of-counsel
claim first raised in postconviction proceedings ― ‗can function as a way to escape rules
of waiver and forfeiture and raise issues not presented at trial,‘ thus undermining the
finality of jury verdicts.‖ Id. (quoting Harrington v. Richter, 562 U.S. 86, 105, 131 S.Ct.
770, 178 L.Ed.2d 624 (2011)). The Court concluded that Weaver had not carried his
burden to show either that he had been prejudiced or that the trial was rendered
fundamentally unfair. Id. at 1913.
Our principal question must be whether and how Weaver‘s analysis in the collateralreview *344 context informs plain-error review of public-trial violations. The conclusion
that not every public-trial violation results in fundamental unfairness supports the
particularized inquiry described above. And while the concern with the finality of
judgments might ostensibly distinguish Weaver‘s context from the present one, it is
nevertheless true that reversal for an error raised for the first time on direct review
carries its own ―systemic costs.‖ The unique considerations raised by appeal on an
unpreserved error should not be disregarded simply because of the nature of the error.
They may be overcome, but not disregarded. See Puckett, 556 U.S. at 135, 129 S.Ct.
1423 (―We have repeatedly cautioned that any unwarranted extension of the authority
granted by Rule 52(b) would disturb the careful balance it strikes between judicial
efficiency and the redress of injustice.‖ (alteration and internal quotation marks
omitted)); United States v. Atkinson, 297 U.S. 157, 159, 56 S.Ct. 391, 80 L.Ed. 555
(1936) (observing that the practice of not correcting unpreserved errors is in part
―founded upon considerations ... of the public interest in bringing litigation to an end
after fair opportunity has been afforded to present all issues of law and fact‖).
In sum, both our own and the Supreme Court‘s jurisprudence on the Sixth Amendment
right to a public trial support the application here of the ―case-specific and factintensive inquiry‖ that a federal appellate court is normally to conduct under Olano‘s
fourth prong. Rosales-Mireles, 138 S. Ct. at 1909 (internal quotation marks omitted).

13a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

3. The Legal Standard
Given the relative novelty of a public-trial error reviewed under Rule 52(b), our inquiry
must look to general principles discernible in our own and the Supreme Court‘s case law
on Olano‘s fourth prong and its antecedents. Because ―each case necessarily turns on its
own facts,‖ an appellate court‘s exercise of discretion is properly based on its evaluation
of which result would most ―promote the ends of justice.‖ United States v. SoconyVacuum Oil Co., 310 U.S. 150, 240, 60 S.Ct. 811, 84 L.Ed. 1129 (1940). In conducting
this evaluation, the Court has frequently weighed the costs to the fairness, integrity,
and public reputation of judicial proceedings that would result from allowing the error
to stand with those that would alternatively result from providing a remedy. We will
adopt this standard here.
First, in determining the costs of inaction, the Supreme Court has focused chiefly upon
the error‘s effect on the values or interests protected by the violated right. For example,
at stake in Rosales-Mireles—which involved a Sentencing Guidelines calculation error—
was the defendant‘s liberty, and an error ―reasonably likely to have resulted in a longer
prison sentence than necessary‖ sufficiently compromised that interest to advise
correction. 138 S. Ct. at 1910. A reasonable citizen, the Court noted, would ―bear a
rightly diminished view of the judicial process and its integrity‖ if the error were
allowed to stand. Id. at 1908 (quoting United States v. Sabillon-Umana, 772 F.3d 1328,
1333-34 (10th Cir. 2014)); see also United States v. Dahl, 833 F.3d 345, 359 (3d Cir.
2016).
Similarly, in other contexts, the Court has looked to the error‘s effect on the jury‘s
verdict. In Cotton and Johnson, the interests underlying the right at issue11 were not so
compromised that correction was warranted—in each case, *345 notwithstanding the
error, the evidence supporting conviction was ―overwhelming‖ and ―essentially
uncontroverted.‖ Cotton, 535 U.S. at 633, 122 S.Ct. 1781; Johnson, 520 U.S. at 470, 117
S.Ct. 1544; see also United States v. Vazquez, 271 F.3d 93, 105-06 (3d Cir. 2001) (en
banc). Likewise, in Young, the harmful effects of a prosecutor‘s inappropriate
statements—a violation of his ―duty to refrain from overzealous conduct,‖ 470 U.S. at 7,
105 S.Ct. 1038—were sufficiently ―mitigated,‖ both by improper statements of defense
counsel and by ―overwhelming evidence,‖ id. at 16-19, 105 S.Ct. 1038.
11

A criminal defendant is entitled to ―a
jury determination that [he] is guilty of
every element of the crime with which
he is charged, beyond a reasonable
doubt.‖ Apprendi v. New Jersey, 530
U.S. 466, 477, 120 S.Ct. 2348, 147
L.Ed.2d 435 (2000) (alteration in
original) (quoting United States v.
Gaudin, 515 U.S. 506, 510, 115 S.Ct.
14a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

2310, 132 L.Ed.2d 444 (1995)).

Evaluation of the degree to which an error has compromised the violated right‘s
underlying values or interests does not, however, necessarily reduce to a determination
of whether the error likely altered the outcome of the proceeding. Though a ―court of
appeals should no doubt correct a plain forfeited error that causes the conviction or
sentencing of an actually innocent defendant,‖ the Supreme Court has ―never held that
a Rule 52(b) remedy is only warranted in cases of actual innocence.‖ Olano, 507 U.S. at
736, 113 S.Ct. 1770 (emphasis in original); see also Rosales-Mireles, 138 S. Ct. at 1906.
In cases predating Cotton, Johnson, and Young, for example, the Court held that the
error at issue sufficiently compromised the fairness and impartiality of the trial that
correction was justified. See Brasfield, 272 U.S. at 450, 47 S.Ct. 135; Clyatt v. United
States, 197 U.S. 207, 222, 25 S.Ct. 429, 49 L.Ed. 726 (1905). At the same time, apart
from cases of actual innocence, an altered outcome does not in itself necessitate
correction of the error. In Rosales-Mireles, the Court allowed that ―countervailing
factors [could] satisfy the court of appeals that the fairness, integrity, and public
reputation of the proceedings will be preserved absent correction,‖ though it did not
elaborate on what such factors might be, concluding only that none existed in the case
before it. 138 S. Ct. at 1909.
Second, against these considerations of the costs of inaction, the Court has weighed the
costs to the fairness, integrity, and public reputation of judicial proceedings that would
alternatively result from noticing the error. In Rosales-Mireles, the Court noted ―the
relative ease of correcting the error,‖ id. at 1908, commenting that ―a remand for
resentencing, while not costless, does not invoke the same difficulties as a remand for
retrial does,‖ id. (quoting Molina-Martinez v. United States, ––– U.S. ––––, 136 S. Ct.
1338, 1348-49, 194 L.Ed.2d 444 (2016)); see also United States v. Williams, 399 F.3d
450, 456 (2d Cir. 2005) (―A legal system seeks to protect rights, but it also takes into
account the costs in time, resources, and disruption in the lives of participants ... that
result when a case must be tried a second time.‖). And in Cotton and Johnson, the Court
perceived ―[t]he real threat ... to the fairness, integrity, and public reputation of judicial
proceedings‖ to be if the error were corrected ―despite the overwhelming and
uncontroverted evidence that‖ the outcome of the proceeding would have been the same
regardless. Cotton, 535 U.S. at 634, 122 S.Ct. 1781 (internal quotation marks omitted);
see also Johnson, 520 U.S. at 470, 117 S.Ct. 1544.
4. Application and Resolution
Applying this standard, we conclude that the District Court‘s error does not warrant
reversal of the Defendants‘ convictions and remand for a new trial.12
12

We acknowledge that one of our sister
circuits has reached a different
15a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

conclusion. See United States v.
Negrón-Sostre, 790 F.3d 295, 306 (1st
Cir. 2015). However, that case was
decided prior to Weaver and RosalesMireles, and it relied in part upon
circuit precedent that Weaver subsequently abrogated. See id. (stating that
Owens v. United States, 483 F.3d 48
(1st Cir. 2007), ―guides our analysis‖);
see also Lassend v. United States, 898
F.3d 115, 122 (1st Cir. 2018) (acknowledging Weaver‘s abrogation of Owens).

*346 First, the costs of inaction, while not negligible, do not rise to the level recognized
in other cases where a remedy has been provided. The Sixth Amendment‘s public-trial
guarantee is ―for the benefit of the accused.‖ Waller, 467 U.S. at 46, 104 S.Ct. 2210
(quoting Gannett Co. v. DePasquale, 443 U.S. 368, 380, 99 S.Ct. 2898, 61 L.Ed.2d 608
(1979)). It is a means of ensuring the fairness of the trial—―that the presence of
interested spectators may keep [the defendant‘s] triers keenly alive to a sense of their
responsibility and to the importance of their functions.‖ Id.; see also United States v.
Lnu, 575 F.3d 298, 305 (3d Cir. 2009) (―The knowledge that every criminal trial is
subject to contemporaneous review in the forum of public opinion is an effective
restraint on possible abuse of judicial power.‖ (quoting Gannett, 443 U.S. at 380, 99
S.Ct. 2898)). More broadly, public access to trial proceedings helps sustain public
confidence that standards of fairness are being observed. See Press-Enterprise, 464 U.S.
at 509, 104 S.Ct. 819.
The District Court‘s September 18 order stated that, ―due to courtroom capacity
limitations,‖ only court personnel, defendants, trial counsel and support staff, and
prospective jurors would be allowed in the courtroom during jury selection. App. 10. All
other individuals could be present only ―by express authorization of the Court.‖ Id. As
noted above, the record gives no further indication of the District Court‘s rationale for
issuing the order. There is no evidence that any party or member of the press or public
objected to the order, nor is there any evidence of an individual or news organization
either seeking authorization from the District Court or being turned away after
attempting to attend the proceedings. Jury selection ultimately lasted only two days,
September 21 and 22, with the trial beginning on September 23. All other proceedings
were open to the public, and a transcript of the jury voir dire was later made available.
Even on this sparse record, there are facts that suggest some costs should the error
remain uncorrected. The closure order came from the District Court itself and extended
across an entire phase of the trial. The Court apparently issued the order unprompted,
and there is no indication that it—albeit without objection to the order by the parties,
16a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

counsel, or the public—considered reasonable alternatives. It is undeniable that the
order to some degree compromised the values underlying the public-trial right. It had
the potential to call into question the fairness, integrity, and public reputation of
judicial proceedings because it stamped the violation of the Defendants‘ Sixth
Amendment right with the imprimatur of the federal judiciary itself, thereby
undermining public confidence in its impartiality.
Nevertheless, there are several countervailing factors that sufficiently mitigate this
possibility. For one, although the closure encompassed all of the jury-selection phase,
those proceedings lasted only two days; the public had access to all other phases of the
trial, which in total lasted longer than seven weeks. See, e.g., Weaver, 137 S. Ct. at 1913
(―The closure was limited to the jury voir dire; the courtroom remained open during the
evidentiary phase of the trial.‖); Press-Enterprise, 464 U.S. at 510, 104 S.Ct. 819
(finding it significant that ―[a]lthough three days of voir dire in this case were open to
the public, six weeks of the proceedings were closed‖ (emphasis in original)). Further, a
transcript of the proceedings was produced *347 and later disclosed. See D. Ct. Dkt.
Nos. 974-993, 997-1005, 1024-1027; see also Weaver, 137 S. Ct. at 1913; PressEnterprise, 464 U.S. at 513, 104 S.Ct. 819. And as our Court has said, ―[i]t is access to
the content of the proceeding—whether in person, or via some form of documentation—
that matters.‖ United States v. Antar, 38 F.3d 1348, 1359-60 (3d Cir. 1994) (emphasis
omitted).13 Moreover, knowledge both of the media‘s attention to the trial and of the
transcript‘s production (which ensures publicity in perpetuity) may have had a similar
effect on the proceedings‘ participants as real-time public access would have had,
keeping them ―keenly alive to a sense of their responsibility and to the importance of
their functions.‖ Waller, 467 U.S. at 46, 104 S.Ct. 2210 (quoting Gannett, 443 U.S. at
380, 99 S.Ct. 2898). In addition, although the general public was not, absent
authorization, able to be present at jury selection, as in Weaver, ―there were many
members of the venire who did not become jurors but who did observe the proceedings.‖
137 S. Ct. at 1913. Finally, there has been ―no suggestion of misbehavior by the
prosecutor, judge, or any other party; and no suggestion that any of the participants
failed to approach their duties with the neutrality and serious purpose that our system
demands.‖ Id.
13

This is not to suggest, as Antar makes
clear, that subsequent release of the
transcript may substitute for closure.
See 38 F.3d at 1360 n.13. Our point
here is that, for purposes of plain-error
review, subsequent disclosure of the
transcript, while not a perfect
substitute, at least mitigates the harm
caused by the closure.

17a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

The ways, then, in which the closure potentially compromised the values protected by
the Defendants‘ Sixth Amendment right are answered by countervailing factors
suggesting that those values were in other respects substantially vindicated—that, in
spite of the closure, the jury-selection proceedings possessed the publicity, neutrality,
and professionalism that are essential components of upholding an accused‘s right to a
fair and public trial. Allowing the error to stand would not leave in place an
unmitigated nullification of the values and interests underlying the right at issue.
Second, the costs of remedial action here would be significant. Unlike in RosalesMireles, we are confronted with a remand for a new trial in ten consolidated cases
whose original trial occurred almost five years ago, spanned approximately two months,
and involved well over one hundred witnesses. But even in the absence of the heavy
burdens specific to these cases, the prospect of retrial demands ―a high degree of
caution,‖ Rosales-Mireles, 138 S. Ct. at 1909, and implicates more fully the Supreme
Court‘s admonition that we exercise our discretion under Rule 52(b) ―sparingly,‖ id.
(quoting Jones v. United States, 527 U.S. 373, 389, 119 S.Ct. 2090, 144 L.Ed.2d 370
(1999)). Moreover, when the Supreme Court in Waller acknowledged a public-trial error
under the Sixth Amendment, it did not automatically reverse the convictions and
remand for a new trial. Even there, on review of a preserved error, it cautioned that
―the remedy should be appropriate to the violation‖ and contemplated the possibility
that in some instances ―a new trial ... would be a windfall for the defendant, and not in
the public interest.‖ 467 U.S. at 50, 104 S.Ct. 2210. The same general consideration
applies here: the remedy is to be assessed relative to the costs of the error.
***
The practical costs of correcting the District Court‘s error are not dispositive, 14 but *348
when we consider them along with the mitigated costs of inaction, we decline to exercise
our discretion in this instance. The importance of the ―searchlight‖ of the public trial is
―deeply rooted‖ in the history of our federal constitutional order and system of justice;
and it has long been a feature of our Court‘s jurisprudence. Rundle, 419 F.2d at 605-06.
Nevertheless, on this record, we cannot say that the values underlying the Defendants‘
right to a public trial were sufficiently compromised that the costs to the fairness,
integrity, and public reputation of judicial proceedings that would result from letting
the District Court‘s error stand outweigh those that would alternatively result from
reversing the Defendants‘ convictions and remanding for a new trial. We cannot, in
sum, say that the District Court‘s closure of jury selection to the public ―seriously
affect[ed] the fairness, integrity, or public reputation of judicial proceedings.‖ Olano,
507 U.S. at 736, 113 S.Ct. 1770.15
14

There was some dispute at oral
argument over the analytical significance of sandbagging, despite no
18a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

suggestion that it occurred here. See
Oral Arg. at 2:53:28-2:55:54; 3:01:243:02:30. Although sandbagging can be
a concern, see United States v. Bansal,
663 F.3d 634, 661 (3d Cir. 2011), we
decline here to give it weight. For one,
it is already accounted for doctrinally
through the Olano test. See Puckett,
556 U.S. at 134, 129 S.Ct. 1423. And
the specter of sandbagging is most
acute where the precedent established
would be an automatic new trial.
Under our standard, there is no such
automaticity, each case turning on its
own facts.
15

Our dissenting colleague places great
weight on the distinction between
harmless and structural error. He
suggests that in considering the costs
of letting the error stand, we
improperly ―rel[y] on cases that
consider errors reviewed for harmlessness.‖ Dissenting Op. at III.B. And
rather than accounting for the costs of
correction, he thinks ―[t]he nature of
the error ... must be the lodestar of our‖
analysis. Id. But ―the term ‗structural
error‘ carries with it no talismanic
significance as a doctrinal matter.‖
Weaver, 137 S. Ct. at 1910. The present
cases ask us to weigh the intersection
of two fundamental distinctions in
criminal procedure: harmless and
structural error, and preserved and
unpreserved error. The dissent would
give dispositive weight to the former.
In our view, at least in the context of
public-trial errors, neither the case law
nor the competing values at stake
warrant that approach. And to the
extent the dissent simply weighs the
costs of inaction differently here, we
acknowledge
his
concerns,
but
respectfully
reach
the
opposite
19a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

conclusion on the facts before us.

III. Right-to-Presence Challenge
Atkinson argues that the District Court‘s in camera resolution of the Batson challenge
during jury selection violated his constitutional ―right to personal presence at all critical
stages of the trial.‖ Rushen v. Spain, 464 U.S. 114, 117, 104 S.Ct. 453, 78 L.Ed.2d 267
(1983) (per curiam); see also Kentucky v. Stincer, 482 U.S. 730, 745, 107 S.Ct. 2658, 96
L.Ed.2d 631 (1987). He further contends that the exclusion was sufficiently prejudicial
to warrant a new trial. The Supreme Court has made clear that violations of the right
to be present are subject to harmless-error review. See Fulminante, 499 U.S. at 306-07,
111 S.Ct. 1246 (citing Rushen, 464 U.S. at 117-18 & n.2, 104 S.Ct. 453). We may assume
without deciding that there was a violation here, because even if an error occurred, ―it
was harmless beyond a reasonable doubt.‖ Chapman v. California, 386 U.S. 18, 24, 87
S.Ct. 824, 17 L.Ed.2d 705 (1967).16
16

Kelly adopts Atkinson‘s
under Rule 28(i).

argument

In evaluating a putative equal protection violation under Batson, trial courts are to
follow a three-step process.
First, a defendant must make a prima facie showing that a peremptory challenge has
been exercised on the basis of race. Second, if that showing has been made, the
prosecution must offer a race-neutral basis for striking the juror in question. Third, in
light of the parties‘ submissions, the trial court must determine *349 whether the
defendant has shown purposeful discrimination.
Miller-El v. Cockrell, 537 U.S. 322, 328-29, 123 S.Ct. 1029, 154 L.Ed.2d 931 (2003)
(citing Batson, 476 U.S. at 96-98, 106 S.Ct. 1712). ―[T]he job of enforcing Batson rests
first and foremost with trial judges,‖ who may consider a number of factors in
determining whether racial discrimination has occurred. Flowers v. Mississippi, –––
U.S. ––––, 139 S. Ct. 2228, 2243, 204 L.Ed.2d 638 (2019). These include: whether the
prosecutor‘s proffered explanations are pretextual, see Snyder v. Louisiana, 552 U.S.
472, 485, 128 S.Ct. 1203, 170 L.Ed.2d 175 (2008), which can be shown through ―side-byside comparisons of some black venire panelists who were struck and white panelists
allowed to serve,‖ Miller-El v. Dretke, 545 U.S. 231, 241, 125 S.Ct. 2317, 162 L.Ed.2d
196 (2005); ―a prosecutor‘s misrepresentations of the record when defending the strike[
],‖ Flowers, 139 S. Ct. at 2243; and any other ―circumstantial evidence that ‗bears upon
the issue of racial animosity,‘ ‖ Foster v. Chatman, ––– U.S. ––––, 136 S. Ct. 1737, 1754,
195 L.Ed.2d 1 (2016) (alteration omitted) (quoting Snyder, 552 U.S. at 478, 128 S.Ct.
1203)). Batson‘s third step ―turns on factual determinations, and, ‗in the absence of
exceptional circumstances,‘ we defer to [trial] court factual findings unless we conclude
20a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

that they are clearly erroneous.‖ Id. at 1747 (quoting Snyder, 552 U.S. at 477, 128 S.Ct.
1203)).
Here, there is no reasonable basis for concluding that prejudice resulted from the
District Court‘s conduct of the Batson hearing. At no point during the hearing or
afterward did the District Court or defense counsel suggest that any of the
Government‘s proffered reasons were pretextual, that the Government had
misrepresented the record, or that any other circumstantial evidence suggested racial
bias. Indeed, Wiseman—who had raised the objection and was one of two defense
counsel present—acknowledged at the hearing, and Atkinson concedes on appeal, that
the Government ―stated race-neutral reasons.‖ App. 667. And when Wiseman and Royce
Morris, the other defense attorney present, questioned whether the characteristics that
led the Government to strike the juror were unique among the persons in the venire,
the District Court proceeded, with Wiseman and Morris‘s assistance, to search the
questionnaires for any other remaining juror with characteristics similar those for
which the juror was struck—in particular, the existence of multiple relatives who had
been criminally convicted and imprisoned, including for drug trafficking. The search
revealed no comparable jurors still on the panel. The record before us provides no basis
for doubting the District Court‘s side-by-side comparison of the jurors. See Davis v.
Ayala, 576 U.S. 257, 274, 135 S.Ct. 2187, 192 L.Ed.2d 323 (2015).17 Finally, we have not
been shown any evidence that might otherwise contradict the Government‘s
representations or suggest that it acted on grounds of racial animus.
17

Ayala was decided under the stricter
standard applied on habeas review of a
state court decision. See 576 U.S. at
267-68, 135 S.Ct. 2187. However, the
Court gives no indication that its
decision on this point would have been
different under the ―clear error‖
standard we are to apply here. See
Foster, 136 S. Ct. at 1747.

In sum, we have no reason to conclude that Atkinson‘s absence from the Batson hearing
was prejudicial. If, therefore, ―the alleged constitutional error‖ occurred, it was
―harmless beyond a reasonable doubt.‖ Rushen, 464 U.S. at 121, 104 S.Ct. 453.
IV. Evidentiary Challenges
The Defendants‘ evidentiary challenges fall into three basic categories. First, Kelly *350
and Sistrunk appeal the District Court‘s denial of their motions to suppress evidence
obtained from searches of their residences. Second, Atkinson asserts that the
Government knowingly persisted in the use of perjured testimony, thus violating his
constitutional right to due process. Finally, those Defendants and four others challenge
21a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

some of the District Court‘s decisions regarding the admission of evidence. We find no
error in any instance.
A. Suppression
Shortly after the grand jury returned its initial indictment in March 2014, federal
agents searched Kelly‘s apartment at 337 East Philadelphia Street in York, seizing
evidence later introduced at trial. Almost exactly six months later, just after the return
of the second superseding indictment, agents conducted a similar search of Sistrunk‘s
apartment, located at 326 West Philadelphia Street, also seizing evidence that was later
introduced. The Government conducted each search pursuant to a warrant issued by
Magistrate Judge Carlson. ATF Special Agent Scott Endy signed the warrant
applications and attached a sworn affidavit to each of them, detailing his decades-long
experience in federal law enforcement, the history of the South Side investigation, and
the basis for probable cause. To establish the latter, he relied in part upon information
provided by several confidential informants relating to Kelly and Sistrunk‘s drugtrafficking activities.
Approximately two months before the trial, Kelly and Sistrunk filed motions to
suppress the evidence obtained from the searches. They contended that the information
in the affidavits was insufficient to establish a factual basis for probable cause and that
the exclusionary rule‘s good-faith exception did not apply. The District Court held
hearings on the motions on August 28, 2015 and denied both of them less than a week
later. It included with each of its orders a memorandum explaining its decision. Kelly
and Sistrunk now appeal those orders, raising largely the same arguments they did
before the District Court.
1. Kelly
―[N]o Warrants shall issue,‖ the Fourth Amendment declares, ―but upon probable cause,
supported by Oath or affirmation, and particularly describing the place to be searched,
and the persons or things to be seized.‖ U.S. Const. amend. IV. This clause was
intended ―to affirm and preserve a cherished rule of the common law, designed to
prevent the issue of groundless warrants.‖ McGrain v. Daugherty, 273 U.S. 135, 156, 47
S.Ct. 319, 71 L.Ed. 580 (1927). We are satisfied that the warrant to search Kelly‘s
residence was not groundless: Special Agent Endy‘s affidavit supplied a sufficient basis
for probable cause.
The Legal Standard
―Our review of the denial of a motion to suppress is for clear error as to the District
Court‘s findings of fact, and plenary as to legal conclusions in light of those facts.‖
22a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

United States v. Hester, 910 F.3d 78, 84 (3d Cir. 2018). In contexts like the present,
though, that latter standard applies only to our review of ―the District Court‘s
evaluation of the magistrate‘s probable cause determination.‖ United States v. Stearn,
597 F.3d 540, 554 (3d Cir. 2010). We pay great deference to the magistrate‘s initial
determination, asking only ―whether ‗the magistrate had a substantial basis for
concluding that probable cause existed.‘ ‖ Id. (quoting Illinois v. Gates, 462 U.S. 213,
238-39, 103 S.Ct. 2317, 76 L.Ed.2d 527 (1983)). It is distinctly the magistrate‘s task to
make the ―practical, common-sense decision whether, given all the circumstances set
forth in the affidavit before him, including the veracity and basis of knowledge of
persons supplying *351 hearsay information, there is a fair probability that contraband
or evidence of a crime will be found in a particular place.‖ Gates, 462 U.S. at 238, 103
S.Ct. 2317 (internal quotation marks omitted).
Specifically, ―[w]hen the crime under investigation is drug distribution, a magistrate
may find probable cause to search the target‘s residence even without direct evidence
that contraband will be found there.‖ Stearn, 597 F.3d at 558. We have long maintained
that when a suspect is involved in drug trafficking, on a significant scale or for an
extended period of time, it is reasonable to infer that he would store evidence of that
illicit activity in his home. See United States v. Hodge, 246 F.3d 301, 306 (3d Cir. 2001);
United States v. Whitner, 219 F.3d 289, 297-98 (3d Cir. 2000). It is insufficient, however,
if the affidavit suggests only that the suspect ―is actually a drug dealer‖ and ―that the
place to be searched is possessed by, or the domicile of, the [suspect].‖ United States v.
Burton, 288 F.3d 91, 104 (3d Cir. 2002). There must also be evidence ―linking [the
targeted location] to the [suspect]‘s drug activities.‖ Id. (emphasis added). ―[T]he search
of a drug dealer‘s home would be unreasonable if the affidavit suggested no reason to
believe contraband would be found there.‖ Stearn, 597 F.3d at 559.
Further, when (as here) the affidavit refers to information gained from confidential
informants, bare conclusory assertions by the affiant of the reliability and veracity of
the informants are insufficient. See Gates, 462 U.S. at 239, 103 S.Ct. 2317. ―Mere
affirmance of belief or suspicion is not enough.‖ Nathanson v. United States, 290 U.S.
41, 47, 54 S.Ct. 11, 78 L.Ed. 159 (1933). But when ―independent police work‖
substantially corroborates the information of a confidential informant, ―an entirely
different case‖ is presented. Gates, 462 U.S. at 241-42, 103 S.Ct. 2317.
―[C]orroborat[ion] in significant part by independent police investigation‖ may provide
the requisite substantial basis for a magistrate‘s finding of probable cause, to which we
will defer. Stearn, 597 F.3d at 556, 557-58; see also Gates, 462 U.S. at 246, 103 S.Ct.
2317.
Application and Resolution
Informants told law enforcement of several interactions with Kelly related to drug
trafficking. In September 2013, an informant identified Kelly in a photograph and
23a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

stated that he had supplied the informant with crack ―on numerous occasions in the
recent past.‖ Kelly App. 120, ¶ 18. Another informant described a February 2014
encounter in which the informant asked Kelly for crack to distribute, and Kelly
responded that he was going to Atlantic City to get some more cocaine. Around that
same time, a third informant told a York police detective that Hernandez was supplying
Kelly with large amounts of crack. These data points suggest that Kelly was at least
involved in the sale and supply of crack cocaine shortly before the warrant issued.
That suggestion was corroborated by independent police work. The affidavit describes
two incidents that occurred in September 2013. York law enforcement conducted a
controlled delivery of $120 to Kelly through a confidential source who had been fronted
cocaine. Six days later, law enforcement oversaw a controlled buy and delivery of crack
involving Kelly. The source received the drugs earlier in the day, and later delivered
$150 to Kelly ―at 337 E. Philadelphia Street.‖ Kelly App. 129, ¶ 57. There was some
dispute over this wording at the suppression hearing, and Kelly contends on appeal that
it incorrectly implies that the transaction took place inside his residence, when the
police report states that the transaction occurred in front of the building. For the
reasons *352 given above, however, that distinction is not decisive. The incident at least
indicates that in the months prior to the warrant application, Kelly was conducting
drug transactions in close physical proximity to his apartment.
The final relevant incident in the affidavit is the most significant. In early March 2014,
about two weeks before Kelly was indicted, federal and local law enforcement (including
Special Agent Endy) conducted a controlled purchase of crack from Kelly through a
cooperating source. Surveillance documented Kelly leaving his East Philadelphia Street
apartment, driving to the location, delivering (what was later confirmed to be) crack to
the source, and then returning immediately to his apartment. ―While we generally
accept the common sense proposition that drug dealers often keep evidence of their
transactions at home, that inference is much stronger when the home is the first place a
drug dealer proceeds following such a transaction.‖ Burton, 288 F.3d at 104 (citation
omitted).
In sum, independent police work corroborated the suggestion of multiple informants
that Kelly was not an occasional street-level dealer, but one who consistently sold and
supplied crack to others in the months and weeks leading up to the warrant application.
Further, that police work provided evidence placing Kelly‘s residence on East
Philadelphia Street in close spatial and temporal proximity to his illegal activity.
Magistrate Judge Carlson therefore had ample basis to conclude there was ―a fair
probability that contraband or evidence of a crime w[ould] be found‖ at the apartment.
Gates, 462 U.S. at 238, 103 S.Ct. 2317.

24a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

2. Sistrunk
Our Court has ―turn[ed] directly to the good faith issue‖ when we concluded that a
defendant‘s probable-cause arguments did not ―involve novel questions of law whose
resolution is necessary to guide future action by law enforcement officers and
magistrates.‖ United States v. Ninety-Two Thousand Four Hundred Twenty-Two
Dollars & Fifty-Seven Cents, 307 F.3d 137, 145 (3d Cir. 2002) (alterations and internal
quotation marks omitted); see United States v. Leon, 468 U.S. 897, 925, 104 S.Ct. 3405,
82 L.Ed.2d 677 (1984). We think such a move is appropriate here, and we will affirm
the denial of Sistrunk‘s motion on good-faith grounds.
The Legal Standard
―To trigger the exclusionary rule, police conduct must be sufficiently deliberate that
exclusion can meaningfully deter it, and sufficiently culpable that such deterrence is
worth the price paid by the justice system.‖ Herring v. United States, 555 U.S. 135, 144,
129 S.Ct. 695, 172 L.Ed.2d 496 (2009). One triggering circumstance is when ―the
magistrate or judge in issuing a warrant was misled by information in an affidavit that
the affiant knew was false or would have known was false except for his reckless
disregard of the truth.‖ Leon, 468 U.S. at 923, 104 S.Ct. 3405 (citing Franks v.
Delaware, 438 U.S. 154, 98 S.Ct. 2674, 57 L.Ed.2d 667 (1978)). The Franks rule, we
have said, encompasses not only an affiant‘s assertions, but also his omissions. See
Wilson v. Russo, 212 F.3d 781, 787 (3d Cir. 2000). Our standard for assertions ―is that ...
‗when viewing all the evidence, the affiant must have entertained serious doubts as to
the truth of his statements or had obvious reasons to doubt the accuracy of the
information he reported.‘ ‖ United States v. Brown, 631 F.3d 638, 645 (3d Cir. 2011)
(quoting Wilson, 212 F.3d at 788). For omissions, by contrast, we ask whether the
―officer withholds a fact in his ken that any reasonable person would have known ... was
the kind of thing the judge would wish to know.‖ *353 Wilson, 212 F.3d at 788
(alteration and internal quotation marks omitted).
Although Wilson concerned an action under 42 U.S.C. § 1983, we have also applied it to
resolve appeals of judgments following Franks hearings. See Brown, 631 F.3d at 648-49;
United States v. Yusuf, 461 F.3d 374, 383-84 (3d Cir. 2006). We will extend this
approach to cases where, as here, Franks is raised in the good-faith context—where the
question is only whether the exclusionary rule should apply. Yet our concern is with
only the first prong of the Franks test—that the affiant acted deliberately to conceal the
truth or with ―reckless disregard for the truth.‖ Franks, 438 U.S. at 171, 98 S.Ct. 2674;
see Leon, 468 U.S. at 923, 104 S.Ct. 3405. The inquiry at the second prong—that the
―false statements or omissions ... [be] material, or necessary, to the finding of probable
cause,‖ Sherwood v. Mulvihill, 113 F.3d 396, 399 (3d Cir. 1997)—is unnecessary
because the presumption is that a Fourth Amendment violation has occurred. See
Herring, 555 U.S. at 145, 129 S.Ct. 695; Leon, 468 U.S. at 922 n.23, 104 S.Ct. 3405.
25a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

This accordingly demands adjusting the application of the first prong when an affiant‘s
alleged omissions are at issue. In the § 1983 context, we have applied the first prong in
light of the second, asking at the former whether the omitted facts and circumstances
were ―relevant to the existence of probable cause.‖ Dempsey v. Bucknell Univ., 834 F.3d
457, 471 & n.9 (3d Cir. 2016). But, when good faith is concerned, the proper question is
not simply whether the allegedly omitted information was known to the affiant and
relevant to the magistrate‘s probable-cause inquiry, but also whether the deliberate or
reckless omission, if it occurred, was ―so objectively culpable as to require exclusion.‖
Herring, 555 U.S. at 146, 129 S.Ct. 695; see also Dempsey, 834 F.3d at 473 n.13 (noting
that satisfaction of its standard does not necessarily amount to a finding of bad faith).
Application and Resolution
Sistrunk identifies four instances where Special Agent Endy allegedly omitted relevant
facts, thereby ―misle[ading] the magistrate judge in reckless disregard for the truth.‖
Sistrunk Br. at 26.
First, the affidavit states that on July 8, 2007, ―a Southside gang member‖ was ―fatally
shot multiple times.‖ Sistrunk App. 170. A suspect later made ―a statement to police
[that] implicated Anthony Sistrunk as being ... with him during the shooting.‖ Id.
Sistrunk contends that this statement ―fail[ed] to inform the ... magistrate that [the
suspect] exonerated [him] of any role in th[e] shooting.‖ Sistrunk Br. at 25.
Second, the affidavit relates that in April 2009, Sistrunk fled a vehicle stop and was
later arrested. Police discovered two firearms in the vehicle. Sistrunk was later
―convicted of fleeing or attempting to elude police.‖ Sistrunk App. 170. He now contends
that this account omits the fact that some firearms-related charges were withdrawn,
and that the jury acquitted him of other offenses.
Third, according to the affidavit, while Sistrunk was in prison in September 2009, an
ATF Special Agent ―obtained the inmate visitor list for Sistrunk which indicated an
association with multiple Southside Gang members.‖ Sistrunk App. 170. Sistrunk
argues that this information ―failed to report that none of [his] co-defendants listed on
his prison visitor list actually visited [him].‖ Sistrunk Br. at 26.
The fourth instance concerns the homicide of Christen Latham in November 2012. The
affidavit states that ―police identified ... Sistrunk as being involved in an altercation
with the victim prior to his murder.‖ Sistrunk App. 171. This account, *354 Sistrunk
says, omitted that no one was criminally charged for the homicide, that he was not
suspected for the crime, and that a witness did not identify him as being present.
These alleged omissions do not amount to a deliberate or reckless concealment of facts
26a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

both relevant to the magistrate‘s probable-cause inquiry and evincing a culpability
worth the costs of suppression.18 The context is important. Special Agent Endy filed his
warrant application on September 22, 2014—only five days after the grand jury
returned the second superseding indictment. The application ―clearly was supported by
much more than a ‗bare bones‘ affidavit‖—it ―related the results of an extensive
investigation‖ that had already led to Sistrunk‘s indictment on conspiracy and drugtrafficking charges. Leon, 468 U.S. at 926, 104 S.Ct. 3405. Moreover, none of the
supposedly omitted facts negates, or even substantially mitigates, the intended
implication of the related facts actually adduced: that, as the affidavit asserted,
Sistrunk ―ha[d] a long history of membership in the Southside Gang and ha[d]
consistently engaged in or ha[d] been associated with criminal activity including drug
trafficking, firearm possession and violence.‖ Sistrunk App. 174. As a result, Special
Agent Endy‘s failure to include the facts does not evince the level of culpability
necessary to trigger the exclusionary rule. The costs of suppression here would far
outweigh any concomitant deterrence effect.
18

In Brown—which concerned Franks
prong one—we held that the standard
of review for assertions is clear error,
reasoning that a district court‘s
requisite determination is ―essentially
factual.‖ See 631 F.3d at 642, 644-45.
The parties here have not briefed us on
the appropriate standard of review in
the omissions context, and we find it
unnecessary to resolve that question.
Even if our review was de novo, we
would still affirm the District Court‘s
judgment.

B. Knowing Use of Perjured Testimony
During his testimony, Darvin Allen, one of the Government‘s principal witnesses,
described a March 2009 episode of attack and retaliation between members of South
Side and Parkway. Late one night at a club, Jahkeem Abney, a South Side member, got
into a verbal dispute with some men from Parkway and was later shot in front of the
club. A few days later, Allen recounted, several persons, including Atkinson, discussed
how to respond to the shooting. Allen then testified that these same individuals drove
up to Parkway and ―engaged in gunfire‖ with Skylar Handy, one of the Parkway
members at the club the night Abney was shot. App. 1647. On cross-examination,
however, Atkinson‘s counsel, Yaninek, asked Allen if it would ―make sense to [him]‖
that Atkinson was incarcerated in March 2009. App. 1801. Allen answered affirmatively
and agreed that, as a result, Atkinson could not have been involved in the retaliatory
shooting.19 Later, during the defense portion of the trial, Yaninek questioned Special
27a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

Agent Endy, who had prepared Allen for trial. Endy acknowledged that his report of
investigation included Allen‘s identification of Atkinson at the retaliatory shooting, and
he accepted that this was impossible, but he did not recall Allen testifying to that effect.
19

Yaninek had earlier, at a sidebar
conversation during direct examination, moved for a mistrial on the basis
of the inaccuracy. (Though he
mistakenly said the testimony placed
Atkinson at the club in possession of a
gun, rather than simply at the retaliation.) The District Court denied the
motion, declaring the issue ―the proper
subject of cross-examination‖ and not
―grounds for a mistrial.‖ App. 1664.
Atkinson does not appeal the District
Court‘s decision to allow the error to be
resolved on cross.

*355 Atkinson now asks for a new trial, contending that the Government knew of
Allen‘s error and chose not to correct it. The Supreme Court has long maintained that
under the Due Process Clauses, the prosecution may neither present nor with-hold
known false evidence, nor ―allow[ ] [such evidence] to go uncorrected when it appears.‖
Giglio v. United States, 405 U.S. 150, 153, 92 S.Ct. 763, 31 L.Ed.2d 104 (1972) (quoting
Napue v. Illinois, 360 U.S. 264, 269, 79 S.Ct. 1173, 3 L.Ed.2d 1217 (1959)) (citing Brady
v. Maryland, 373 U.S. 83, 87, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963); and Mooney v.
Holohan, 294 U.S. 103, 112, 55 S.Ct. 340, 79 L.Ed. 791 (1935)). Yet such a violation, if
established, does not alone warrant a new trial; there must also be prejudice (or
materiality). See Giglio, 405 U.S. at 154, 92 S.Ct. 763 (citing Napue, 360 U.S. at 271, 79
S.Ct. 1173); see also Turner v. United States, ––– U.S. ––––, 137 S. Ct. 1885, 1893, 198
L.Ed.2d 443 (2017). Accordingly, in cases of uncorrected false testimony, our Court
requires a defendant to show four elements: (1) the witness committed perjury; (2) the
government knew or should have known of the perjury; (3) the testimony went
uncorrected; and (4) there is a reasonable likelihood the false testimony affected the
verdict. See Lambert v. Blackwell, 387 F.3d 210, 242 (3d Cir. 2004). Atkinson‘s
challenge fails at the first prong.
―A witness commits perjury if he or she ‗gives false testimony concerning a material
matter with the willful intent to provide false testimony, rather than as a result of
confusion, mistake, or faulty memory.‘ ‖ United States v. Hoffecker, 530 F.3d 137, 183
(3d Cir. 2008) (quoting United States v. Dunnigan, 507 U.S. 87, 94, 113 S.Ct. 1111, 122
L.Ed.2d 445 (1993)). Allen‘s testimony was not limited to the night club incident; it
ranged across several years and recounted multiple shootings involving a number of
different persons. That Allen could not remember precisely who was present at the
28a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

March 2009 retaliatory shooting is therefore unsurprising, and it does not in itself
demonstrate willful intent. Further, Atkinson presents no evidence that Allen, at the
time of his direct testimony, knew that Atkinson was incarcerated in March 2009.
Compare Haskell v. Superintendent Greene SCI, 866 F.3d 139, 143, 146 (3d Cir. 2017),
with Hoffecker, 530 F.3d at 183. Indeed, on cross-examination, when asked whether
Atkinson was present at the retaliatory shooting, Allen replied that he knew Atkinson
―committed a shooting at Skylar‖ Handy, but that he didn‘t ―know if it was March
because I think [Atkinson] went away.‖ App. 1801. And when Allen was affirmatively
presented with the fact of Atkinson‘s incarceration, he readily allowed it. Given this
testimony, we cannot but conclude that Allen‘s initial identification of Atkinson was
simply the result of a ―faulty memory.‖ Hoffecker, 530 F.3d at 183.
C. Admission
The final category of evidentiary challenges concerns the admission and exclusion of
evidence at trial. On multiple occasions, it is argued, the District Court ran afoul of the
relevance provisions of the Federal Rules of Evidence by admitting evidence that either
was unfairly prejudicial in excess of its probative value or served only to prove a
Defendant‘s character. Several Defendants also challenge the District Court‘s
admissions decisions regarding expert testimony. We perceive no error in any of these
instances.
1. Relevance
We will disturb a district court‘s admission decision only if the court abused its
discretion—if the decision ―was arbitrary, fanciful or clearly unreasonable,‖ such that
―no reasonable person would *356 adopt the district court‘s view.‖ United States v.
Starnes, 583 F.3d 196, 214 (3d Cir. 2009) (internal citation omitted).
Kelly’s Nickname
The second superseding indictment included an alias, or street name, for each
defendant. The one for Kelly was ―Killer.‖ App. 18. Early in the trial, his attorney filed a
motion in limine objecting to the Government‘s use of the alias as unfairly prejudicial
because it suggested extrinsic evidence that Kelly had committed murder. The
Government countered that certain witnesses knew Kelly only through his alias, and
that it would use the nickname only to identify Kelly, thus preventing jury confusion.
The District Court agreed with the Government. It also, at the conclusion of the trial,
included a limiting instruction to the jury on this issue. Kelly now seeks a new trial,
arguing that the ―probative value‖ of the nickname evidence was ―substantially
outweighed by a danger of ... unfair prejudice.‖ Fed. R. Evid. 403.
29a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

Several of our sister circuits have long maintained that the prosecution‘s use of a
defendant‘s alias in an indictment or at trial is permissible where the evidence is
relevant—including for purposes of identifying the defendant—and does not result in
unfair prejudice. See, e.g., United States v. Doe, 741 F.3d 217, 227 (1st Cir. 2013);
United States v. Farmer, 583 F.3d 131, 144-47 (2d Cir. 2009); United States v.
Emuegbunam, 268 F.3d 377, 394 (6th Cir. 2001); United States v. Delpit, 94 F.3d 1134,
1146 (8th Cir. 1996); United States v. Hines, 955 F.2d 1449, 1454 (11th Cir. 1992);
United States v. Williams, 739 F.2d 297, 299-300 (7th Cir. 1984). We agree, and adopt
this standard here.
The District Court‘s judgment easily passes muster. Allen knew Kelly only by his
nickname, and the District Court engaged in a reasonable balancing of the testimony‘s
relevance with the nickname‘s potential to generate unfair prejudice. Kelly points to no
instance where either Allen or a later witness in the same position was able to identify
him by anything else, nor does he indicate any moment where the Government used the
alias to do anything other than identify him in a witness‘s testimony. 20 Further, the
District Court fortified its Rule 403 balancing by including the limiting instruction. We
perceive no abuse of discretion in this course of events.
20

Kelly asserts that the Government
―prompted‖ Cordaress Rogers to use
the nickname although Rogers clearly
knew Kelly‘s given name. Kelly Reply
Br. at 4. We do not read the testimony
that way. It is clear from the context
that the Government was seeking to
elicit Kelly‘s surname, and not his
nickname.

The Latham Homicide
A few hours after midnight on November 17, 2012, a Harrisburg man named Christen
Latham died of a gunshot wound to the chest in the parking lot outside a York
restaurant known as MoMo‘s. A verbal dispute inside the restaurant spilled out into the
parking lot, where Latham was at first severely beaten by several men and then fatally
shot. Police later identified Hernandez, Cruz, Kelly, and Schueg as either involved in or
at least present at the altercation,21 but no charges were ever filed.
21

Rogers testified at trial that Sistrunk
told him that he also was present.

The Government sought at trial to introduce evidence suggesting the involvement of
several defendants in the altercation, including testimony that Hernandez threw the
first punch and circumstantial evidence that Kelly was the one who killed Latham.
*357 Hernandez filed a joint motion in limine to exclude all the evidence, arguing that
30a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

it was inadmissible under Federal Rules of Evidence 402, 403, and 404(b). The District
Court denied the motion, ruling that the evidence was intrinsic to the RICO-conspiracy
offense charged at Count I and that any danger of unfair prejudice did not substantially
outweigh the evidence‘s probative value. Seven Defendants22 now contest one or both
aspects of that ruling.
22

Hernandez, Kelly, Sistrunk, and
Eatmon all argue the point in some
form. Cruz, Villega, and Atkinson
invoke Rule 28(i).

Intrinsic evidence need not be analyzed under Rule 404(b) because it is not ―[e]vidence
of any crime, wrong, or other act,‖ Fed. R. Evid. 404(b)(1), but rather ―part and parcel of
the charged offense,‖ United States v. Green, 617 F.3d 233, 245 (3d Cir. 2010). We have,
however, limited ―the ‗intrinsic‘ label [to] two narrow categories of evidence‖: (1) where
the uncharged conduct ―directly proves the charged offense‖; and (2) where it is
―performed contemporaneously with the charged crime‖ and ―facilitate[s] the
commission of the charged crime.‖ Id. at 248-49 (internal quotation marks omitted).
This suggests that the nature and scope of the evidence able to be deemed intrinsic will
vary with the charged offense. In particular, where a criminal conspiracy is charged,
courts have afforded the prosecution considerable leeway to present evidence, even of
unalleged acts within the indictment period, that reflects a conspiratorial agreement or
furtherance of the conspiracy‘s illegal objectives. See, e.g., United States v. Bush, 944
F.3d 189, 196-97 (4th Cir. 2019); United States v. McGill, 815 F.3d 846, 879 (D.C. Cir.
2016) (per curiam); United States v. Maxwell, 643 F.3d 1096, 1100 (8th Cir. 2011);
United States v. Parker, 553 F.3d 1309, 1314-15 (10th Cir. 2009); see also United States
v. Gibbs, 190 F.3d 188, 218 (3d Cir. 1999) (holding to the same effect on plain-error
review).
On this standard, the District Court here did not abuse its discretion. As we detail more
fully below, both RICO and drug-trafficking conspiracy are ultimately grounded in the
general principles of conspiracy law. The Latham evidence implicates several of the
Defendants and goes to their willingness to engage in concerted illegal action,
amounting at its most serious to murder. The argument that the evidence has nothing
to do with drug trafficking and the South Side-Parkway rivalry is therefore inapposite.
Conspiracy is a single crime, even if it embraces a multitude of ends to be achieved over
a period of time, by means that are not themselves the subject of agreement among the
conspirators. See Frohwerk v. United States, 249 U.S. 204, 209-10, 39 S.Ct. 249, 63
L.Ed. 561 (1919); infra, Section V.B.1. In this light, a reasonable person could agree
with the District Court that the Latham evidence serves directly to prove the existence
of RICO conspiracy among the Defendants.

31a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

The Defendants‘ Rule 403 challenges also fail. The fact that the evidence is intrinsic
establishes its probative nature, and as the District Court pointed out, any evaluation
of prejudicial effect here must be considered in the context of the totality of the evidence
produced. ―The jury,‖ the District Court observed, ―has heard extensive evidence of
Defendants‘ and their alleged co-conspirators‘ drug trafficking and gun possession, gang
membership, multiple shootings directed at their rivals, shootouts on public streets
involving feuding rivals in which children are shot and even killed, and evidence of
multiple murders.‖ *358 App. 15. We agree with this assessment, and conclude that the
District Court did not abuse its discretion in balancing the probative value and danger
of prejudice as it did.
2. Expert Testimony
It is well established that a district judge has a ―general ‗gatekeeping‘ obligation‖ with
respect to all testimony based on specialized knowledge of some form. Kumho Tire Co. v.
Carmichael, 526 U.S. 137, 141, 119 S.Ct. 1167, 143 L.Ed.2d 238 (1999). Under Federal
Rule of Evidence 702, she must ensure that such testimony is both reliable and
relevant, including under the standard laid down in Rule 403. Daubert v. Merrell Dow
Pharms., Inc., 509 U.S. 579, 594-95, 113 S.Ct. 2786, 125 L.Ed.2d 469 (1993). The judge
must also ensure that ―an expert witness [does] not state an opinion about whether [a]
defendant did or did not have a mental state or condition that constitutes an element of
the crime charged or of a defense.‖ Fed. R. Evid. 704(b). The Defendants here challenge
two of the District Court‘s decisions under these rules. We review those decisions for
abuse of discretion. United States v. Davis, 726 F.3d 434, 446 (3d Cir. 2013).
Sistrunk’s Tattoo
The second superseding indictment included allegations that several South Side
members were affiliated with the Bloods. Prior to trial, the Government announced its
intention to have John Havens, a Special Agent with the Federal Bureau of
Investigation, testify as an expert on the Bloods, detailing among other things their
organization and symbols. Anticipating a challenge to this proffer, the District Court
held a Daubert hearing. And when during trial the motion to exclude came, the District
Court ruled in a memorandum opinion that most of it was admissible, but it excluded
(among other things) testimony ―as to any individual defendant except in the abstract.‖
D. Ct. Dkt. No. 860, at 11.
In support of its Blood-affiliation allegations, the Government sought to introduce
depictions of a tattoo on Sistrunk‘s left bicep that read: ―Live By The 5, Die By The
[symbol of a gun].‖ App. 5127; Sistrunk App. 78. Special Agent Havens would not be
shown the tattoo, the Government assured, but he would describe the significance of
certain symbols, such as the number five. Sistrunk‘s attorney objected under Rule 403,
32a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

arguing that this singled out his client in contradiction of the Daubert decision. The
District Court admitted the evidence, and Sistrunk now appeals.
We find no abuse of discretion in the District Court‘s decision. Cooperating witnesses
identified Sistrunk as a Blood. Further, according to testimony of Special Agent Endy,
when federal agents executed the search warrant of Sistrunk‘s home, they found a
letter signed, ―Hat Boy, Low Ridah, Brim, Kanye.‖ App. 5016. Special Agent Endy
testified that ―Kanye‖ was Sistrunk‘s alias and that ―Brim‖ was ―a Blood set
reference‖—that is, a reference to a particular subgroup of Bloods. App. 5016. Sistrunk‘s
argument that this testimony and evidence was minimal when compared to the
voluminous trial record is irrelevant. At the very least, the testimony represents
independent support, apart from the tattoo and Special Agent Havens‘s testimony, for
the Government‘s theory was Sistrunk was affiliated with the Bloods.
Nor did the District Court‘s decision to admit the evidence unfairly single out Sistrunk
in contradiction of the Daubert ruling. Under that decision, Special Agent Havens
would not have testified as to Sistrunk in particular; the tattoo would have been
introduced after Special Agent Havens‘s testimony, and the jury would have been
allowed to infer, or not infer, a connection *359 between the tattoo and the significance
of the number five among certain Bloods. In fact, the point arguably became explicit
only through the efforts of Sistrunk‘s attorney, who on cross-examination presented
Special Agent Havens with a picture of the tattoo. Given this course of events, we are
comfortable that a reasonable person could adopt the District Court‘s view.
The De La Cruz Criteria
One of the defense‘s principal expert witnesses was Dr. Jesse De La Cruz, a former
gang member who earned a doctoral degree studying the gangs of Stockton, California.
While conducting that research, he developed a set of eight characteristics common to
the gang members he studied. Upon completion of his degree, Dr. De La Cruz began to
testify as an expert witness, determining whether a criminal defendant possessed all or
most of the characteristics. He interviewed all twelve defendants and was prepared to
say whether they met his criteria.
The Government challenged that proposed testimony under Rule 704(b). It argued that
Dr. De La Cruz could discuss the eight characteristics and other matters, but that
application of the characteristics to the defendants would ―go directly to the intent of a
particular person to be a member of a gang.‖ App. 5752. The District Court agreed. It
ruled that Dr. De La Cruz could provide an ―overview of gang activities‖ as a response
to Special Agent Havens, but that he could not discuss whether the defendants met the
eight criteria. App. 5754. That, the District Court said, would amount to ―testi[mony] as
to a person‘s mental state or condition,‖ and the danger for prejudice was substantial in
33a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

comparison with its limited probative value. App. 5754-55. Joined by five others,23
Atkinson contends that the District Court erred in excluding the testimony.
23

Cruz, Hernandez, Villega, Sistrunk,
and Eatmon.

This was not reversible error. It may be true that Dr. De La Cruz‘s application of the
eight criteria would not have constituted ―the last step in the inferential process—a
conclusion as to the [defendants‘] mental state.‖ United States v. Watson, 260 F.3d 301,
309 (3d Cir. 2001) (citation omitted). As we describe in Section V.B.1 below, a RICO
enterprise may still exist even if it does not amount to a gang, nor does gang
membership in itself prove RICO conspiracy. Yet that distinction illustrates the
problematic nature of the testimony. The probative value was minimal unless one
associates gang membership with RICO conspiracy, and so any testimony to that effect
would have served, as the District Court said, only to ―confuse and mislead the jury.‖
App. 5755. ―The trial judge has broad discretion to admit or exclude expert testimony,
based upon whether it is helpful to the trier of fact.‖ Gibbs, 190 F.3d at 211. In this
light, we cannot say the District Court abused its discretion in excluding the testimony.
V. Sufficiency of the Evidence
We turn now to a series of interlocking challenges to the sufficiency of the evidence
supporting the jury‘s verdicts. The operative indictment charged all the Defendants in
Counts I, II, and III: RICO conspiracy, 18 U.S.C. § 1962(d); drug-trafficking conspiracy,
21 U.S.C. § 846; and drug trafficking, 21 U.S.C. § 841(a), respectively. Seven
Defendants—Cruz, Hernandez, Villega, Kelly, Atkinson, Sistrunk, and Eatmon—were
convicted on Count I, and each now contests his verdict.24 These *360 same seven, plus
Rice and Schueg, were convicted on Counts II and III.25 All nine had drug quantities of
5 kilograms or more of powder cocaine and 280 grams or more of crack cocaine
attributed to them, thus raising their mandatory minimum term of imprisonment to 10
years and the maximum term to life. See 21 U.S.C. § 841(b)(1)(A). Six of these nine—
Hernandez, Villega, Rice, Kelly, Sistrunk, and Eatmon—now challenge the verdicts on
Counts II and III.26
24

Cruz, Hernandez, Sistrunk, and
Eatmon all argue the issue. Villega,
Kelly, and Atkinson raise it through
Rule 28(i).

25

Williams was also convicted on Count
III. He appeals only his sentence, on
grounds other than drug quantity. See
infra Section VI.A.1.
34a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056
26

On Count II, Hernandez, Villega, Rice,
and Sistrunk argue the issue in some
form, while Kelly and Eatmon raise it
through Rule 28(i). Hernandez, Villega,
and Rice also argue Count III; Kelly,
Sistrunk, and Eatmon all invoke Rule
28(i). In an addendum to his opening
brief, Hernandez challenged his
conviction on Count VI by incorporating without explanation Villega‘s
argument as to Count II. This was an
improper adoption. At least in this
context, we fail to see how a Rule 28(i)
incorporation of a co-defendant‘s
argument on a different count is
applicable, absent elaboration that was
not provided.

For the reasons that follow, we will affirm the judgments of conviction. We also shall
affirm the jury‘s Count II drug-quantity verdicts insofar as they bear on the Defendants‘
statutory maximum terms of imprisonment.
A. The Rowe Error
We begin with the legal framework governing our inquiry. Nearly three and a half years
after trial, and after all the Defendants had been sentenced, our Court in United States
v. Rowe, 919 F.3d 752 (3d Cir. 2019), clarified the effect of Alleyne v. United States, 570
U.S. 99, 133 S.Ct. 2151, 186 L.Ed.2d 314 (2013), upon the distribution and possession
elements of § 841(a)(1). We held that the provisions of § 841(b)(1)(A) and (b)(1)(B) attach
to each discrete act of distribution or possession because they specify facts that increase
the statutory penalty, and so, under Alleyne, constitute an ―element of a distinct and
aggravated crime,‖ 570 U.S. at 116, 133 S.Ct. 2151, that must be submitted to the jury,
see Rowe, 919 F.3d at 759. As a result, the jury may not ―combine the amounts
distributed or possessed‖ at discrete instances to find the drug quantities specified in §
841(b)(1)(A) and (b)(1)(B). Id. at 761.
The parties agree that under Rowe the evidence was insufficient to support the Count
III verdicts attributing to the Defendants the § 841(b)(1)(A) quantities. The jury here
was charged on an aggregation theory of § 841(a)(1). The parties contest, however, our
standard of review of that error. Further, two Defendants argue that Rowe also affects
the jury‘s drug-quantity attributions on Count II—drug-trafficking conspiracy. We will
address each argument in turn. We conclude that remedial action on the Count III error
is warranted only if the Defendants‘ terms of imprisonment would have been different
35a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

absent the error. Further, we conclude that an aggregation error did occur on Count II,
but only as it regards the Defendants‘ mandatory minimum terms of imprisonment, and
that the same standard of review applies as for the Rowe error on Count III.
1. Standard of Review
When a new rule is issued during the pendency of a direct criminal appeal, it is the
appellate court‘s duty to ―apply the law in effect at the time it renders its decision.‖
United States v. Johnson, 899 F.3d 191, 199 (3d Cir. 2018) (quoting Henderson v. United
States, 568 U.S. 266, 271, 133 S.Ct. 1121, 185 L.Ed.2d 85 (2013)). But that does not
necessarily determine *361 our standard of review. Sistrunk contends that his Rule 29
motion at the close of the Government‘s case in chief sufficiently preserved the issue.
We disagree.
The standard for preserving an argument on a Rule 29 motion remains an open
question in our circuit. In United States v. Joseph, 730 F.3d 336 (3d Cir. 2013), we drew
a distinction between ―issues‖ and ―arguments,‖ noting that the former ―can encompass
more than one of the latter.‖ Id. at 340. We then held that, in the evidence-suppression
context, ―for parties to preserve an argument for appeal, they must have raised the
same argument in the District Court —merely raising an issue that encompasses the
appellate argument‖ results in waiver of the argument. Id. at 337 (emphases omitted).
The Government invites us to apply this standard here.
Nearly all of our sister circuits, though, have settled on a somewhat different standard.
One has said that when a defendant makes ―general motions pursuant to Rule 29 for
acquittal, generally arguing that the government presented insufficient evidence,‖ he
has ―preserved his sufficiency claims for appeal.‖ United States v. Hoy, 137 F.3d 726,
729 (2d Cir. 1998). Others have maintained that ―[w]hen a defendant raises specific
grounds in a Rule 29 motion, grounds that are not specifically raised‖ are subject to
some form of plain-error review, if not waived, on appeal. United States v. Chong Lam,
677 F.3d 190, 200 (4th Cir. 2012) (emphasis omitted).27 A plurality of circuits has
explicitly adopted both of these standards.28 Only the Fifth Circuit applies a Joseph-like
standard in the Rule 29 context. See United States v. McDowell, 498 F.3d 308, 312-13
(5th Cir. 2007).
27

28

See also United States v. Samuels, 874
F.3d 1032, 1036 (8th Cir. 2017); United
States v. Baston, 818 F.3d 651, 663-64
(11th Cir. 2016).
See United States v. Porter, 886 F.3d
562, 566 (6th Cir. 2018); United States
v. Marston, 694 F.3d 131, 134 (1st Cir.
36a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

2012); United States v. Hosseini, 679
F.3d 544, 550 (7th Cir. 2012); United
States v. Graf, 610 F.3d 1148, 1166 (9th
Cir. 2010); United States v. Goode, 483
F.3d 676, 681 (10th Cir. 2007); United
States v. Spinner, 152 F.3d 950, 955
(D.C. Cir. 1998).

We think uniformity in federal criminal practice has value, and so we decline to import
Joseph wholesale here. It is unnecessary, though, to diverge too far from Joseph and
hold that a broadly stated Rule 29 motion preserves all arguments bearing on the sufficiency of the evidence. It is enough to accept here that when a Rule 29 motion raises
specific grounds, or arguments (in the Joseph sense), all such arguments not raised are
unpreserved on appeal. Sistrunk‘s motion raised a narrow factual argument regarding
the testimony of a witness. That is a specific ground distinct from the Rowe argument,
rendering the latter unpreserved. Our principal divergence from Joseph comes in how to
treat the error: we will review for plain error.29
29

The circuits are more divided on this
question than on the preservation
standard itself. One accepts full
waiver, Porter, 886 F.3d at 566; two
review for ―a manifest miscarriage of
justice,‖ Chong Lam, 677 F.3d at 200
n.10; Graf, 610 F.3d at 1166; one looks
for ―clear and gross injustice,‖ Marston,
694 F.3d at 134; and five review for
plain error, Samuels, 874 F.3d at 1036;
Baston, 818 F.3d at 664; Hosseini, 679
F.3d at 550; Goode, 483 F.3d at 681;
Spinner, 152 F.3d at 955. Our Court
has in the past reviewed unpreserved
sufficiency arguments for plain error.
See United States v. Husmann, 765
F.3d 169, 172, 173 n.2 (3d Cir. 2014);
United States v. Sussman, 709 F.3d
155, 162 (3d Cir. 2013). Given this
practice, and the nature of the error
here, we think plain-error review is
appropriate.

The parties agree that Olano‘s first and second prongs are satisfied, and so *362 our
focus is on the substantial-rights inquiry. In Vazquez, we confronted a § 841 violation of
Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348, 147 L.Ed.2d 435 (2000): ―the
37a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

drug quantity [wa]s not found by a jury beyond a reasonable doubt and the defendant‘s
sentence under § 841 exceed[ed] 20 years.‖ 271 F.3d at 98. Because this violation
involved both a sentencing error and a trial error, our substantial-rights inquiry asked
whether ―the sentence would have been the same absent the trial error.‖ Id. at 101
(emphases omitted).
A similar approach is appropriate here. A Rowe error‘s principal effect goes to the
sentence imposed. The ―aggravated crime,‖ Alleyne, 570 U.S. at 116, 133 S.Ct. 2151,
charged in Count III encompasses the ―lesser included offense‖ of a ―[v]iolation of §
841(a)(1),‖ Burrage v. United States, 571 U.S. 204, 210 n.3, 134 S.Ct. 881, 187 L.Ed.2d
715 (2014). The default penalty for that offense is specified in § 841(b)(1)(C). As a result,
any prejudice arising from the Rowe error concerns the length of the Defendants‘
incarceration rather than the integrity of the general verdicts against them. 30 And we
may assume that any additional day an error causes a person to spend in prison affects
his substantial rights. See, e.g., Molina-Martinez, 136 S. Ct. at 1345.
30

No Defendant challenges his conviction
of the lesser included offense of simple
distribution. The Rowe error therefore
did not affect the Defendants‘
substantial rights regarding the $100
assessment for felony convictions
pursuant to 18 U.S.C. § 3013(a)(2)(A).
See United States v. Tann, 577 F.3d
533, 539-40 (3d Cir. 2009).

To determine whether the Defendants‘ sentences would have been different absent the
Rowe error, we may look in the first instance to the evidence supporting the verdicts on
Count II— drug-trafficking conspiracy under 21 U.S.C. § 846.31 As noted, the six
challengers to Count III are the same six who contest their convictions on Count II.
These six were sentenced to concurrent terms of imprisonment on both counts. See
supra Section I.D. If the evidence is sufficient to support the jury‘s drug-quantity
attributions on Count II—and, in particular, the resulting maximum term of imprisonment under § 841(b)(1)(A)32—then vacating the drug-quantity verdicts on Count III
would not result in reduced sentences. It would, therefore, be unnecessary for us to
correct the Rowe error.
31

RICO caps violations at 20 years‘
imprisonment unless ―the violation is
based on a racketeering activity for
which the maximum penalty includes
life imprisonment.‖ 18 U.S.C. § 1963(a).
Here, the alleged predicate offenses
were violations of § 841(a)(1) at the §
38a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

841(b)(1)(A) quantities—for which the
maximum penalty is life imprisonment.
The conceded Rowe error therefore
necessarily infects the validity of the
sentences on Count I.
32

The statutory maximum term under
§ 841(b)(1)(C) is still greater than §
841(b)(1)(A)‘s mandatory minimum,
absent other aggravating facts—such as
a prior serious drug felony conviction—
that would apply anyway under
(b)(1)(C).

2. Section 846 Conspiracy and Drug Quantity: The Legal Standard
Hernandez and Sistrunk contend that Rowe and Alleyne also affect our evaluation of
the evidence supporting the drug-quantity verdicts on Count II. In particular, they
argue that those decisions either transformed drug quantity into a mens rea element of
§ 846, or barred the aggregation of drug quantity for sentencing purposes under § 846.
We reject the first argument, but qualifiedly agree on the second. We hold that a jury,
in determining drug quantity for purposes of the mandatory minimum term of
imprisonment, may attribute to a defendant only those quantities involved in violations
of *363 § 841(a) that were within the scope of the conspiracy, or in furtherance of it, and
were reasonably foreseeable to the defendant as a natural consequence of his unlawful
agreement.
Mental Element
Section 846 does not demand that a person conspire to distribute a particular quantity
of a controlled substance. To see why, we must begin with the underlying statute.
Under § 841(a)(1), ―it shall be unlawful for any person knowingly or intentionally .. to ...
distribute, or ... possess with intent to ... distribute, ... a controlled substance.‖ This is
the core offense—the interdiction backed by the state‘s claim to a monopoly of
legitimate physical violence. Section 841(b) makes this clear: it describes the penalties
to be imposed upon ―any person who violates subsection (a) of this section.‖ 21 U.S.C.
§ 841(b). Properly speaking, then, a person who engages in drug trafficking violates §
841(a), and the penalty for that violation is to be determined according to § 841(b),
which provides both a default penalty and heightened penalties based on certain
additional factual findings. As a result, it is unnecessary for the jury to find that the
defendant knew the quantity of the controlled substance he was distributing, or
possessing with intent to distribute, at a given time. It is enough that the knowing or
39a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

intentional distribution or possession occurred; the quantity is a factual finding that
goes to the sentence to be imposed. See Burrage, 571 U.S. at 210-11, 134 S.Ct. 881
(interpreting § 841(b)(1)(C)‘s ―results from‖ enhancement as ―impos[ing] ... a
requirement of actual causality,‖ rather than legal causality, and thus as requiring a
factual finding of but-for causation); United States v. Dado, 759 F.3d 550, 570 (6th Cir.
2014).
This interpretation is consistent with Apprendi and Alleyne. The Court in those cases
operated on an expansive definition of ―crime‖ according to its ―invariable linkage‖ with
punishment, Apprendi, 530 U.S. at 478, 120 S.Ct. 2348, rather than specifically the
conduct and mental state deemed illegal. Yet the decisions did not fundamentally affect
legislative authority to define a crime‘s elements. In Apprendi, for example, the Court
noted that traditionally, an indictment under a criminal statute that ―annexe[d] a
higher degree of punishment to a common-law felony, if committed under particular
circumstances,‖ needed to charge both ―the circumstances of the crime and the intent of
the defendant at the time of commission,‖ and ―the circumstances mandating [the
higher] punishment.‖ Id. at 480, 120 S.Ct. 2348 (quoting John Archbold, Pleading and
Evidence in Criminal Cases 51 (15th ed. 1862)). Both were ―essential elements to be
alleged,‖ id., but a prosecutor could fail to prove the latter and still prove that the felony
had been committed, id. at 480-81, 120 S.Ct. 2348 (citing Archbold, supra, at 188). As a
result, although bundled in the broader concept of an ―aggravated‖ crime, the statutory
definitions of ―[t]he core crime‖ and the ―triggering‖ fact remain the same. Alleyne, 570
U.S. at 113, 133 S.Ct. 2151. In the context of § 841(a) and (b), that means the defendant
need not consciously cognize the amount he is distributing in order to violate the law.
The same logic applies to drug-trafficking conspiracies under § 846. The statute
provides: ―Any person who ... conspires to commit any offense defined in this subchapter
shall be subject to the same penalties as those prescribed for the offense, the
commission of which was the object of the ... conspiracy.‖ In the case of a drugtrafficking conspiracy, the ―offense‖ conspired is a violation of § 841(a), and the penalty
for this distinct crime—conspiracy to violate § 841(a)—is provided in § 841(b). For the
same reason, then, that drug *364 quantity is not a mens rea element under § 841(a), it
is not one under § 846.
Drug-Quantity Aggregation
The Defendants alternatively argue that just as Rowe and Alleyne bar the aggregation
of drug quantity for discrete violations of § 841(a)(1), so they also bar aggregation for
violations of § 846. The Government responds by referring to United States v. Gori, 324
F.3d 234 (3d Cir. 2003), for the proposition that the penalty for drug-trafficking
conspiracy under § 846 can be calculated according to the total amount of drugs in the
conspiracy. We agree with neither side fully. When determining drug quantity for
purposes of a defendant‘s mandatory minimum sentence, a jury must follow the
40a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

ordinary limitations on co-conspirator liability. Because that principle was not followed
here, we conclude that an error occurred on the Count II drug-quantity verdicts.
In Gori, we recognized that the general principles of conspiracy law may influence a
defendant‘s sentencing exposure under § 846. When Congress borrows a legal term of
art in a criminal law, it is presumed to ―know[ ] and adopt[ ] the cluster of ideas that
were attached‖ to that term and ―the meaning [the term‘s] use will convey to the judicial
mind,‖ absent provision to the contrary. Morissette v. United States, 342 U.S. 246, 263,
72 S.Ct. 240, 96 L.Ed. 288 (1952). Section 846 is a law of this type, and so our
interpretation of it ought, where relevant, to have reference to the ―well-established
principles,‖ Salinas v. United States, 522 U.S. 52, 63, 118 S.Ct. 469, 139 L.Ed.2d 352
(1997), of conspiracy law. See, e.g., Smith v. United States, 568 U.S. 106, 110-11, 133
S.Ct. 714, 184 L.Ed.2d 570 (2013).
It is elementary that the ―agreement to commit an offense does not become several
conspiracies because it continues over a period of time.‖ Braverman v. United States,
317 U.S. 49, 52, 63 S.Ct. 99, 87 L.Ed. 23 (1942). ―[A] single continuing agreement to
commit several offenses‖ is equally a violation of the relevant conspiracy statute as a
one-off agreement to commit a single offense. Id.; see also United States v. Kissel, 218
U.S. 601, 607, 31 S.Ct. 124, 54 L.Ed. 1168 (1910). Gori simply applied this principle in
the context of a § 846 drug-trafficking conspiracy: one can conspire to violate § 841(a)
multiple times, and this may constitute a single violation of § 846. 324 F.3d at 237.
Moreover, because § 846 ties its penalty to that of the substantive offense, and because,
by our foregoing logic, it is § 841(a) specifically that is conspired to be violated, Gori‘s
interpretation of how to penalize a multi-offense drug-trafficking conspiracy remains
good law.
Yet, importantly, Gori concerned the aggregation of drug quantities arising from the
offenses of the same defendant. See 324 F.3d at 236. Equally central to conspiracy law is
the concept of co-conspirator liability. ―It has always been, ... and is still, the law that,
after prima facie evidence of an unlawful combination has been introduced, the act of
any one of the co-conspirators in furtherance of such combination may be properly given
in evidence against all.‖ Bannon v. United States, 156 U.S. 464, 469, 15 S.Ct. 467, 39
L.Ed. 494 (1895). The ―unlawful agreement contemplated precisely what was [to be]
done,‖ it ―was formed for the purpose‖ of committing a crime or crimes, and so the ―act
of one partner in crime is attributable to all.‖ Pinkerton v. United States, 328 U.S. 640,
647, 66 S.Ct. 1180, 90 L.Ed. 1489 (1946). Although thus expanding liability, this logic
contains its own limiting principle: the act must be ―done in furtherance of the
conspiracy,‖ or ―fall within the scope of the unlawful project.‖ Id. at 647-48, 66 S.Ct.
1180. A ―ramification[ ] of the plan *365 which could not be reasonably foreseen as a
necessary or natural consequence of the unlawful agreement‖ does not bind the coconspirator. Id. at 648, 66 S.Ct. 1180. ―Nobody is liable in conspiracy except for the fair
41a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

import of the concerted purpose or agreement as he understands it.‖ United States v.
Peoni, 100 F.2d 401, 403 (2d Cir. 1938) (L. Hand, J.).
These principles inform the extent of a defendant‘s sentencing exposure under § 846. In
a post-Apprendi case, we held that in prosecutions of multi-person drug-trafficking
conspiracies, ―[t]he [jury‘s] finding of drug quantity for purposes of determining the
statutory maximum is ... to be an offense-specific, not a defendant-specific,
determination.‖ United States v. Phillips, 349 F.3d 138, 143 (3d Cir. 2003), vacated on
other grounds sub nom. Barbour v. United States, 543 U.S. 1102, 125 S.Ct. 992, 160
L.Ed.2d 1012 (2005). In other words, the jury finds only the quantity attributable to
―the conspiracy as a whole,‖ and then the sentencing judge determines ―the drug
quantity attributable to each defendant and sentence[s] him or her accordingly,
provided that the sentence does not exceed the applicable statutory maximum.‖ Id.
―Accomplice attribution,‖ we recognized long before Phillips, ―often results in a dramatic
increase in the amount of drugs for which the defendant is held accountable, which
translates directly into a dramatic increase in the sentence.‖ United States v. Collado,
975 F.2d 985, 995 (3d Cir. 1992). And so, ―at sentencing, it is essential for courts to
conduct ‗a searching and individualized inquiry into the circumstances surrounding
each defendant‘s involvement in a conspiracy to ensure that the defendant‘s sentence
accurately reflects his or her role.‘ ‖ United States v. Metro, 882 F.3d 431, 439 (3d Cir.
2018) (alterations omitted) (quoting Collado, 975 F.2d at 995).
Phillips‘s holding did not apply to mandatory minimum sentences. We adopted in that
case the reasoning of three of our sister circuits, see Phillips, 349 F.3d at 141-42 (citing
United States v. Knight, 342 F.3d 697, 710-11 (7th Cir. 2003); United States v. Turner,
319 F.3d 716, 722-23 (5th Cir. 2003); and Derman v. United States, 298 F.3d 34, 42-43
(1st Cir. 2002)), and those courts do not employ a conspiracy-wide approach in the
context of mandatory minimums, see United States v. Haines, 803 F.3d 713, 741-42 &
n.9 (5th Cir. 2015); United States v. Colón-Solís, 354 F.3d 101, 103 (1st Cir. 2004);
Knight, 342 F.3d at 711. Phillips said nothing to the contrary, consistent with Collado:
the jury sets the maximum according to the total amount of drugs in the conspiracy,
and the sentencing judge conducts an individualized inquiry to determine the penalty
for each co-conspirator.
Alleyne alters this regime. Since that decision, several circuits—including the First and
the Fifth—have held that the jury, in determining (as Alleyne requires) drug quantity
for purposes of the mandatory minimum, may attribute to a defendant only that
―quantity which was within the scope of the agreement and reasonably foreseeable to
him.‖ United States v. Dewberry, 790 F.3d 1022, 1030 (10th Cir. 2015) (internal
quotation marks omitted); see also United States v. Stoddard, 892 F.3d 1203, 1221 (D.C.
Cir. 2018); Haines, 803 F.3d at 740; United States v. Rangel, 781 F.3d 736, 742-43 (4th
Cir. 2015); United States v. Pizarro, 772 F.3d 284, 292-93 (1st Cir. 2014).33
42a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056
33

The Sixth Circuit has adopted the
conspiracy-wide approach for statutory
minimum and maximum sentences.
See United States v. Gibson, No. 156122, 2016 WL 6839156, at *1 (6th Cir.
Nov. 21, 2016) (citing United States v.
Robinson, 547 F.3d 632 (6th Cir.
2008)), aff’d by an equally divided
court, 874 F.3d 544 (6th Cir. 2017)
(mem).

*366 We adopt here a similar, though not the same, approach. The jury, when
determining drug quantity for purposes of the mandatory minimum, may attribute to a
defendant only those quantities involved in violations of § 841(a) that were within the
scope of, or in furtherance of, the conspiracy and were reasonably foreseeable to the
defendant as a consequence of the unlawful agreement.34 We take this approach for two
reasons.
34

The quantity of drugs for which
conspirators can be held accountable is
not limited to amounts distributed or
possessed with intent to distribute. It
also includes amounts that conspirators agreed to distribute or possess
with intent to distribute, even if those
amounts were not actually distributed
or possessed.

First, it follows from the basic principles of our precedent. In Rowe, we acknowledged
that because the drug quantities specified in § 841(b)(1)(A) and (b)(1)(B) increase the
mandatory minimum, they constitute facts that must be submitted to the jury for each
violation of § 841(a)(1). Gori is consistent with Rowe because conspiracy law
encompasses a continuing agreement to commit several offenses, and so the penalty for
a violation of § 846 is appropriately calculated according to the aggregate drug quantity
involved in a defendant‘s continuous execution of the unlawful agreement. Under
Alleyne, the jury must determine this quantity to set the mandatory minimum. Our
holding here follows from the same rationale, applying to this landscape another
dimension of conspiracy law— co-conspirator liability—that must be considered by the
jury. Where Gori held that the drug quantities involved in a single conspirator‘s
multiple violations of § 841(a) may be aggregated for purposes of his sentence, we hold
that the quantities involved in the § 841(a) violations of multiple conspirators may be
aggregated for determining the mandatory minimum of any one conspirator, subject to
the ordinary limitations on co-conspirator liability.35
43a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056
35

Pinkerton concerned liability for a
distinct substantive offense committed
by a co-conspirator in furtherance of
the conspiracy, rather than liability for
the conspiracy offense itself. However,
its holding was simply an extension of
an already well-established principle
that the act of a co-conspirator in
furtherance of the scheme is the act of
all for purposes of conspiracy liability.
See Pinkerton, 328 U.S. at 647, 66 S.Ct.
1180. Our holding here applies that
idea to the § 846 drug-trafficking
context. Further, we think Pinkerton‘s
limitations on co-conspirator liability
apply to liability not only for a coconspirator‘s substantive offense, but
also under the relevant conspiracy
statute. See, e.g., Peoni, 100 F.2d at
403.

Second, the approach is most consistent with our pre-Alleyne regime. Phillips ensured
that the jury would set the maximum term a defendant could spend in prison, leaving it
to the judge to determine each co-conspirator‘s individual sentencing exposure under §
841(b). Here we transfer some of that latter inquiry to the jury, as Alleyne requires. Yet
in doing so, we must necessarily alter it. Under Collado, the judge at sentencing must
―consider whether the amounts distributed by the defendant‘s co-conspirators ... were
reasonably foreseeable in connection with the criminal activity the defendant agreed to
undertake.‖ 975 F.2d at 995 (internal quotation marks omitted) (emphasis added). But
as we have said, drug quantity is not a mens rea element under § 846, and coconspirator liability extends to acts or omissions that are reasonably foreseeable as a
consequence of the unlawful agreement. Accordingly, we think the proper inquiry is to
determine the violations of § 841(a) within the scope of the conspiracy, or in furtherance
of it, that were reasonably foreseeable to the defendant as a natural result of his
unlawful agreement. All drug quantities *367 involved therein are attributable to the
defendant.36
36

Collado‘s specification that drug
quantity itself needed to be reasonably
foreseeable
was
based
on
an
application note of U.S.S.G. § 1B1.3.
And ―[w]e have ... explained that the
conduct a defendant is typically held
responsible for under the guidelines is
44a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

not coextensive with conspiracy law.‖
Metro, 882 F.3d at 439 (internal
quotation marks omitted). Moreover, in
2015, the Sentencing Commission
amended the relevant application note
so that it now reads: ―With respect to
offenses
involving
contraband
(including controlled substances), the
defendant is accountable [for] ... all
quantities of contraband that were
involved in transactions carried out by
other participants, if those transactions
... were reasonably foreseeable in
connection with that criminal activity.‖
U.S.S.G. § 1B1.3 cmt. n.3 (emphasis
added).

We thus agree with Hernandez and Sistrunk that an error occurred as to Count II. The
jury rendered its verdicts by considering only the amount of drugs involved in the
conspiracy as a whole. But for the same reasons given above with respect to the Rowe
error on Count III—the drug-trafficking count—this argument was not preserved in the
Defendants‘ Rule 29 motions, and so our review is for plain error. We may assume that
Olano‘s second prong is satisfied. On the third prong, our logic with respect to the Rowe
error applies similarly here. The error goes to the sentences imposed, and because (as
we hold below) the Count II verdicts otherwise stand, we may determine whether there
is ―a reasonable probability that, but for the error claimed,‖ the Defendants‘ terms of
imprisonment would have been different. Dominguez Benitez, 542 U.S. at 82, 124 S.Ct.
2333 (alteration and citation omitted).37 Further, given our conclusions in Part VI
below, with one exception,38 the Defendants‘ sentences include incarceration in excess of
§ 841(b)(1)(A)‘s mandatory minimum. The error, then, did not affect their substantial
rights.
37

38

Our discussion above of the $100
assessment for felony convictions, see
supra note 30, thus also applies here.
Hernandez. See infra Section VI.A.2.

B. Count I: RICO Conspiracy
Having clarified the legal framework of our inquiry, we now turn to the sufficiency of
the evidence on Counts I and II—RICO conspiracy and drug-trafficking conspiracy.
Both offenses may arise from the same set of facts because they follow from the general
principles of conspiracy law. Here, the operative indictment incorporated its allegations
45a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

at Count I as the basis for its charge at Count II. And, as we shall see, the evidence
supporting the Count I convictions overlaps with that supporting the convictions on
Count II.39 We hold that a rational juror could have concluded that each of the
Defendants convicted on Count I was guilty as charged.40
39

40

Of the six Defendants raising a
sufficiency challenge on Count II, only
Rice was not convicted on Count I. We
address the evidence supporting his
conspiracy conviction in Section V.C.2
below.
We consider here only the sufficiency of
the evidence supporting the jury‘s
general verdicts on Count I—
commission of the substantive offense.
See supra note 31.

1. The Elements of the Offense
Conspiracy Generally
The fountainhead of any criminal conspiracy is the agreement: when ―two or more ...
confederate and combine together, by concerted means, to do that which is unlawful or
criminal.‖ Callan v. Wilson, 127 U.S. 540, 555, 8 S.Ct. 1301, 32 L.Ed. bb223 (1888).
Under both the RICO- and the drug-trafficking-conspiracy statutes, 18 U.S.C. § 1962(d)
and 21 U.S.C. § 846, ―the Government must prove beyond *368 a reasonable doubt that
two or more people agreed to commit a crime covered by the specific conspiracy statute
(that a conspiracy existed) and that the defendant knowingly and willfully participated
in the agreement (that he was a member of the conspiracy).‖ Smith, 568 U.S. at 110,
133 S.Ct. 714. The statutes are therefore ―even more comprehensive than the general
conspiracy offense in [18 U.S.C.] § 371‖ because they do not require an overt act.
Salinas, 522 U.S. at 63, 118 S.Ct. 469; see also United States v. Shabani, 513 U.S. 10,
17, 115 S.Ct. 382, 130 L.Ed.2d 225 (1994).
Further, the RICO or drug-trafficking conspiracy may continue over time and embrace
a multitude of objects. Smith, 568 U.S. at 111, 133 S.Ct. 714. It may exist even if an
individual conspirator ―does not agree to commit or facilitate each and every part of the‖
contemplated crime or crimes. Salinas, 522 U.S. at 63, 118 S.Ct. 469. Nor even must the
conspiracy actually achieve any or all of its criminal ends. United States v. Rabinowich,
238 U.S. 78, 86, 35 S.Ct. 682, 59 L.Ed. 1211 (1915). It is enough that the conspirator
―intend[s] to further an endeavor which, if completed, would satisfy all of the elements
of a substantive criminal offense.‖ Salinas, 522 U.S. at 65, 118 S.Ct. 469.
46a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

Thus involved, each conspirator is subject to the ordinary principles of co-conspirator
liability. Smith, 568 U.S. at 111, 133 S.Ct. 714 (citing Pinkerton, 328 U.S. at 646, 66
S.Ct. 1180). And he continues to be liable ―up to the time of abandonment or success.‖
Kissel, 218 U.S. at 608, 31 S.Ct. 124. Indeed, ―a defendant‘s membership in the
conspiracy, and his responsibility for its acts, endures even if he is entirely inactive
after joining it.‖ Smith, 568 U.S. at 114, 133 S.Ct. 714; see also Callanan v. United
States, 364 U.S. 587, 593, 81 S.Ct. 321, 5 L.Ed.2d 312 (1961) (―Group association for
criminal purposes often, if not normally, makes possible the attainment of ends more
complex than those which one criminal could accomplish.‖). Once the prosecution has
proved both the existence of a conspiracy across a period of time and the defendant‘s
participation in that conspiracy, the burden falls on the defendant to establish his
withdrawal prior to the completion of the period. Smith, 568 U.S. at 113, 133 S.Ct. 714.
If he does not show ―some [affirmative] act to disavow or defeat the purpose‖ of the
conspiracy, then he must ―incur the guilt‖ attendant upon its continuance. Hyde v.
United States, 225 U.S. 347, 369-70, 32 S.Ct. 793, 56 L.Ed. 1114 (1912).
Section 1962(c)
Seven Defendants were convicted of conspiracy to violate 18 U.S.C. § 1962(c). That
provision declares in relevant part:
It shall be unlawful for any person ... associated with any enterprise engaged in, or
the activities of which affect, interstate ... commerce, to conduct or participate,
directly or indirectly, in the conduct of such enterprise‘s affairs through a pattern of
racketeering activity ....
For our purposes here, the final two elements are the most significant: participation in
(1) the conduct of an enterprise (2) through a pattern of racketeering activity.
RICO defines an ―enterprise‖ to ―include[ ] any individual, partnership, corporation,
association, or other legal entity, and any union or group of individuals associated in
fact although not a legal entity.‖ 18 U.S.C. § 1961(4). In the present cases, the
enterprise was said to be the ―Southside Gang,‖ which was ―a group of individuals
associated in fact.‖ App. 25. The jury was charged and returned its verdicts on this
theory. Despite considerable dispute at trial and in the briefs before us, the term ―gang‖
has no talismanic significance in the RICO context. An association-in-fact *369
enterprise, the Supreme Court has said, is ―an entity, for present purposes a group of
persons associated together for a common purpose of engaging in a course of conduct.‖
United States v. Turkette, 452 U.S. 576, 583, 101 S.Ct. 2524, 69 L.Ed.2d 246 (1981).
This definition entails ―at least three structural features: a purpose, relationships
among those associated with the enterprise, and longevity sufficient to permit these
associates to pursue the enterprise‘s purpose.‖ Boyle v. United States, 556 U.S. 938, 946,
47a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

129 S.Ct. 2237, 173 L.Ed.2d 1265 (2009). Beyond this the proof need not go: ―an
association-in-fact enterprise is simply a continuing unit that functions with a common
purpose.‖ Id. at 948, 129 S.Ct. 2237.
Next, ―racketeering activity‖ is said to ―mean[ ]‖ certain criminal acts defined by
statute, including ―any offense involving ... the felonious manufacture, importation,
receiving, concealment, buying, selling, or otherwise dealing in a controlled substance.‖
18 U.S.C. § 1961(1)(D). A ―pattern of racketeering activity‖ in turn ―requires at least
two acts of [such] activity, ... the last of which occurred within ten years (excluding any
period of imprisonment) after the commission of a prior act of racketeering activity.‖ Id.
§ 1961(5); see H.J. Inc. v. Nw. Bell Tel. Co., 492 U.S. 229, 239, 109 S.Ct. 2893, 106
L.Ed.2d 195 (1989) (―[A] ... prosecutor must show that the racketeering predicates are
related, and that they amount to or pose a threat of continued criminal activity.‖
(emphasis in original)). Although the evidence establishing an enterprise and a pattern
of racketeering activity ―may in particular cases coalesce,‖ the two elements themselves
remain ―at all times‖ distinct. Turkette, 452 U.S. at 583, 101 S.Ct. 2524.
Section 1962(d)
As relevant here, to be liable for RICO conspiracy under § 1962(d), a defendant must
―intend to further an endeavor which, if completed, would satisfy all of the elements of
[§ 1962(c)].‖ Salinas, 522 U.S. at 65, 118 S.Ct. 469. That endeavor may be both the
enterprise and the conspiracy, for the two crimes can be ―coincident in their factual
circumstances.‖ Id. It is a ―person,‖ not the enterprise itself, who violates § 1962(c) by
―conduct[ing] or participat[ing]‖ in the enterprise‘s affairs ―through a pattern of
racketeering activity.‖ 18 U.S.C. § 1962(c); see United States v. Bergrin, 650 F.3d 257,
267 (3d Cir. 2011) (citing H.J. Inc., 492 U.S. at 244, 109 S.Ct. 2893). The nature of the
liability therefore depends upon the circumstances. A defendant may be a party to the
enterprise, not violate § 1962(c), but still be liable under § 1962(d). He need not ―commit
or agree to commit the two or more predicate acts requisite to [§ 1962(c)].‖ Salinas, 522
U.S. at 65, 118 S.Ct. 469. Nor even, thanks to the absence of an overt-act requirement,
must one of his co-conspirators actually violate § 1962(c). See id. at 63, 118 S.Ct. 469. It
is enough that the defendant ―knew about and agreed to facilitate the scheme‖ which at
least would have resulted in the satisfaction of § 1962(c)‘s elements. Id. at 66, 118 S.Ct.
469; see also United States v. Fattah, 914 F.3d 112, 164 (3d Cir. 2019).
Thus, consistent with the general principles of conspiracy law recited above, conspiracy
to violate § 1962(c) requires: (1) that two or more persons agree to further an enterprise
whose activities affect or would affect interstate or foreign commerce, and whose
execution results or would result in a person conducting or participating directly or
indirectly in the enterprise‘s affairs through a pattern of racketeering activity; (2) that
the defendant was a party to or a member of this agreement; and (3) that the defendant
48a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

joined the agreement knowing of its objectives *370 and with the intention of furthering
or facilitating them. See United States v. John-Baptiste, 747 F.3d 186, 207 (3d Cir.
2014).
2. The Evidence
In any review of the sufficiency of the evidence supporting a criminal conviction, ―the
relevant question is whether, after viewing the evidence in the light most favorable to
the prosecution, any rational trier of fact could have found the essential elements of the
crime beyond a reasonable doubt.‖ Jackson v. Virginia, 443 U.S. 307, 319, 99 S.Ct. 2781,
61 L.Ed.2d 560 (1979) (emphasis in original). The Government may prove the existence
of a conspiracy entirely through circumstantial evidence. United States v. Kapp, 781
F.2d 1008, 1010 (3d Cir. 1986). In such instances, we sustain the verdict if the proof
―appears as a reasonable and logical inference‖ from ―evidence of related facts and
circumstances.‖ United States v. Brodie, 403 F.3d 123, 134 (3d Cir. 2005) (citation
omitted). And we ―must credit all available inferences in favor of the government.‖
Fattah, 914 F.3d at 162 (citation omitted).
The Defendants—Cruz, Hernandez, Villega, Kelly, Atkinson, Sistrunk, and Eatmon—
contend that the alleged South Side gang did not amount to an enterprise for purposes
of RICO liability. They point to testimony that the South Side was simply a
neighborhood where the Defendants grew up or lived; that the drug dealing that
occurred there amounted at best to parallel conduct by independent actors; and that
any violent incidents were the product of personal ―beefs.‖
It is undeniable that the drug dealers operating on the South Side during the
indictment period did not constitute a gang on the order of the Bloods or Crips. Nor was
this a trafficking operation to rival the ‘Ndrangheta. Yet that is not what RICO
requires. The evidence need only support the conclusion that each of these seven
Defendants at least agreed to further a continuing unit that functioned with a common
illegal purpose.
Testimony showed that as early as 2002, Cruz, Hernandez, and Kelly supplied crack to
Atkinson and Eatmon in the area around Maple and Duke. App. 3543-47, 3633-34; see
also App. 1503-07. Hernandez and Kelly also, it was said, helped to introduce guns to
the South Side, at least partially in response to fighting with Parkway. App. 3553. A
few years later, Sistrunk began selling drugs at Maple and Duke. App. 3559-60. By that
time, however, Cruz, Hernandez, and Kelly had been incarcerated, and so Atkinson,
Eatmon, and Sistrunk, among others, began collectively to traffic in large quantities of
crack. App. 3570-75, 3830-31; see also App. 2110-11; 3138-39. Their profits were all
earned separately, App. 3817-18, but nevertheless the men sometimes shared scales
and bought or fronted drugs among each other, App. 3574.
49a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

This association persisted into the next decade. See, e.g., App. 2456-57. In June 2011,
while in prison, Villega told Warren Pillgreen to ―straighten out that package,‖
referring to a drug debt Pillgreen owed to Hernandez. App. 3016. A few months later,
shortly before Pillgreen‘s release from prison, Cruz engaged him to ―commit an act of
violence‖ to settle the debt. App. 3018. By 2012, Cruz and Hernandez were still
supplying substantial amounts of crack, and Kelly was present for these transactions.
App. 3644-48. In September, Cruz, Hernandez, Kelly, Atkinson, and Eatmon were
involved in a physical altercation between South Side and Parkway at Rutter‘s gas
station. App. 3649-63. The Latham homicide occurred just over two months later—an
event, we have seen, in which Hernandez, Cruz, Kelly, and perhaps *371 Sistrunk
played a part. App. 36370-71; 3859-61. Finally, in early 2014, Villega‘s floormate at a
halfway house worked with him to sell heroin, and occasionally observed him with other
individuals coming to and from the house‘s basement. App. 4513-16. When police later
searched the house, they discovered approximately 13.5 grams of heroin and 61 grams
of crack in the basement, and a photograph in Villega‘s bedroom of himself, Cruz, and
Hernandez. App. 4561, 4567-68.
A rational juror could conclude from this evidence—and, more generally, from the entire
body of evidence—that each of the seven challengers agreed to further an enterprise
whose predominant common purpose was ―making money‖ through the sale of
controlled substances, but which also occasionally embraced related ends, such as
―protecting its own members and criminal schemes.‖ See Bergrin, 650 F.3d at 269. As
noted, the conspiracy and the enterprise need not be distinct, and a continuing unit for
purposes of RICO may exist even if a given Defendant was not always active. See Boyle,
556 U.S. at 948, 129 S.Ct. 2237 (―[N]othing in RICO exempts an enterprise whose
associates engage in spurts of activity punctuated by periods of quiescence.‖); see also
Smith, 568 U.S. at 114, 133 S.Ct. 714. Here, each of the Defendants persisted in the
group‘s concerted illicit activities over an extended period of time, operating within the
larger, if ―relatively loose and informal,‖ Bergrin, 650 F.3d at 269, structure of the
South Side‘s drug blocks. Based on this evidence, we cannot say that no rational juror
would find the Defendants guilty of RICO conspiracy under § 1962(d).
C. Count II: Drug-Trafficking Conspiracy
We proceed, finally, to the evidence supporting the convictions on Count II. Six
Defendants—Hernandez, Villega, Rice, Kelly, Sistrunk, and Eatmon—challenge the
sufficiency of this evidence. We hold that a rational juror could have found each of the
challengers guilty under § 846 and attributed to him the § 841(b)(1)(A) quantities for
purposes of his statutory maximum term of imprisonment.

50a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

1. The Elements of the Offense
We have already described some of the basic principles governing a defendant‘s liability
under § 846 for participation in a drug-trafficking conspiracy. See supra Sections V.A.2,
V.B.1. Our precedent and the foregoing discussion establish three basic elements that
the jury must find beyond a reasonable doubt.
First, there must be a conspiracy—an agreement among two or more persons to achieve
by concerted means an illegal goal. It has long been settled in our Court that to prove a
drug-trafficking conspiracy, ―the government must establish a unity of purpose between
the alleged conspirators, an intent to achieve a common goal, and an agreement to work
together toward that goal.‖ Gibbs, 190 F.3d at 197. A conspiracy under § 846 becomes a
drug-trafficking conspiracy when that common goal is a violation or violations of §
841(a). But ―[t]he government need not prove that each defendant knew all of the
conspiracy‘s details, goals, or other participants.‖ United States v. Bailey, 840 F.3d 99,
108 (3d Cir. 2016) (internal quotation marks omitted). The agreement ―is the essence of
the offense,‖ and ―the presence of certain facts often provides circumstantial evidence of
the underlying agreement.‖ United States v. Pressler, 256 F.3d 144, 147 (3d Cir. 2001).
Second, the defendant must have been a member of the conspiracy. He must be shown
to have intended to further a scheme whose execution he knew would or did result in
the commission of each element *372 of the substantive offense. Under this latter
―knowledge‖ requirement, the government must prove ―that the defendant had
knowledge of the specific objective contemplated by the ... conspiracy.‖ United States v.
Caraballo-Rodriguez, 726 F.3d 418, 425 (3d Cir. 2013) (en banc). In the present context,
that means he must have known that the conspiracy would or did result in the
distribution of a controlled substance.
Although the evidence establishing the existence of a conspiracy may coincide with
proof of participation in that conspiracy, ―certain types of circumstantial evidence
become substantially more probative if it can be established that a conspiracy existed
and the only remaining question is whether the defendant was a part of it.‖ Pressler,
256 F.3d at 151. ―[A] simple buyer-seller relationship,‖ however, ―without any prior or
contemporaneous understanding beyond the sales agreement itself, is insufficient to
establish that the buyer was a member of the seller‘s conspiracy.‖ Gibbs, 190 F.3d at
197. Rather, the ―buyer‖ is liable under § 846 only if direct or circumstantial evidence
shows that he knew ―he was part of a larger operation.‖ United States v. Price, 13 F.3d
711, 728 (3d Cir. 1994); see also Gibbs, 190 F.3d at 199-200 (listing several factors for
making this determination).
Third, if the indictment charges drug quantities pursuant to § 841(b)(1)(A) or (b)(1)(B),
then the statutory maximum term of imprisonment is to be determined according to the
amount of drugs involved in the conspiracy as a whole. Phillips, 349 F.3d at 143. The
51a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

mandatory minimum, however, may be determined only according to the aggregate
quantity of drugs involved in those violations of § 841(a) that were within the scope of
the conspiracy, or in furtherance of it, and were reasonably foreseeable to the defendant
as a natural consequence of his unlawful agreement. See supra Section V.A.2.
2. The Evidence
We proceed generally according to the sufficiency-of-the-evidence standard recited
above. In cases of drug-trafficking conspiracy, ―the verdict must be upheld as long as it
does not ‗fall below the threshold of bare rationality.‘ ‖ Caraballo-Rodriguez, 726 F.3d at
431 (quoting Coleman v. Johnson, 566 U.S. 650, 656, 132 S.Ct. 2060, 182 L.Ed.2d 978
(2012)).
The challengers contest the jury‘s verdicts on two grounds. First, they contend there
was no evidence of an agreement either to form a conspiracy or to join one. Second, they
dispute the evidence as to drug quantity. We consider each argument in turn.
Agreement
Our foregoing discussion establishes the common foundation of RICO and drugtrafficking conspiracy in the general principles of conspiracy law. The two offenses may
be coincident in their factual circumstances, especially where the pattern of racketeering activity involves ―the felonious manufacture, ... buying, selling, or otherwise
dealing in a controlled substance.‖ 18 U.S.C. § 1961(1)(D). In the present cases, our
evaluation of the evidence supporting the Count I convictions of Hernandez, Villega,
Kelly, Sistrunk, and Eatmon also applies here with regard to the requisite
conspiratorial agreement. See United States v. Rodríguez-Torres, 939 F.3d 16, 30 (1st
Cir. 2019) (resolving defendants‘ sufficiency challenges to drug-trafficking-conspiracy
convictions on the basis of a preceding resolution of their sufficiency challenges to their
RICO-conspiracy convictions).
The only Defendant to challenge his Count II conviction who was not convicted *373 on
Count I is Rice. He argues that there is insufficient evidence showing that he ever
joined the charged conspiracy—that he was, at most, a street-level dealer who
abandoned that lifestyle upon his release from prison in 2013. The evidence in the
record belies this argument. For example, Cordaress Rogers testified that he, Rice,
Atkinson, Sistrunk, and Eatmon were ―at one time in life ... like[ ] brothers‖ and would
hang out and sell drugs together every day around Maple and Duke. App. 3571. This
went beyond friendship to mutual facilitation of drug trafficking. They would gather at
each other‘s houses to sell drugs; they would buy drugs from each other or front them to
each other when one ran out; they would share scales for measuring the drugs. App.
3572-74. They sold primarily to dealers, rather than users. App. 3830-31. Further, upon
52a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

his release from prison in late July 2008, Rice returned to the South Side. At that point,
Jerrod Brown identified Rice as handling guns and seeking retribution for the shooting
of Jahkeem Abney outside the night club in mid-March 2009. App. 2113-14. Finally,
Brown also testified that sometime after May 2013—which would have been shortly
after Rice‘s release from prison—Rice supplied him with crack. App. 2163-64.
Based on this evidence, a reasonable juror could conclude that Rice was consciously and
willingly a part of a larger drug-trafficking operation and remained so even after
periods of imprisonment. See Gibbs, 190 F.3d at 200.
Drug Quantity
A rational juror also could conclude that Hernandez, Villega, Rice, Kelly, Sistrunk, and
Eatmon were each responsible, on a conspiracy-wide basis, for 280 grams or more of
crack cocaine. Rogers‘s testimony alone indicated that in the early years just after 2002,
he received 1 kilogram of crack from each of Hernandez, Kelly, and Cruz. App. 3633-34.
At that time, he was close with Atkinson, Rice, and Eatmon, who were receiving drugs
from Hernandez and Kelly in similar quantities. App. 3543-45. Rogers also estimated
that in later years, when he, Atkinson, Rice, Sistrunk, and Eatmon worked closely
together, he would bring back from New York 500-1000 grams of crack ―[e]very couple
of days.‖ App. 3573. He testified that in this time he distributed and saw his friends
distribute ―many kilos of crack.‖ App. 3575. Moreover, to the extent that any of the
Defendants were incarcerated and could not have been present for the movement of
these quantities, their renewed drug dealing upon release from prison confirms their
continuing liability for acts in furtherance of the conspiracy, even apart from the
absence of an affirmative act of withdrawal. See Hyde, 225 U.S. at 369-70, 32 S.Ct. 793.
Finally, as noted above, Villega aided Hernandez in the collection of a drug debt by
warning Pillgreen to ―straighten out that package.‖ App. 3016. Marquis Williams
testified that Villega fronted him 6 grams of heroin in 2013. App. 2443-44, 2655. By
early 2014, Villega was still dealing heroin, App. 4513-16, and police later recovered
about 13.5 grams of heroin and 61 grams of crack from the basement Villega was seen
to frequent with others. App. 4561. In just that timeframe, from 2011 to 2014, Rogers
testified that he received 156 grams of crack from Cruz and Hernandez, App. 3645-46,
and Marquis Williams said he sold 50-gram quantities of crack on ―several‖ occasions,
App. 2442. Based on this evidence alone, an attribution to Villega of over 280 grams of
crack on a conspiracy-wide basis does not fall below the threshold of bare rationality.
***
There was sufficient evidence upon which a rational juror could have *374 concluded
that these six Defendants were guilty under § 846 and were responsible for 280 grams
or more of crack. Because we reach this conclusion, we further conclude that the Rowe
53a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

error on Count III did not affect their substantial rights. Their statutory maximum
terms of imprisonment would have been life even if the Rowe error had not occurred.
VI. Sentencing
The final category of issues concerns the sentences imposed in the years following the
trial. All the Defendants challenge various aspects of those judgments. 41 For the
reasons that follow, we will affirm the judgments of sentence of Williams and Rice. But
we will vacate Hernandez‘s judgment of sentence in full, the other Defendants‘
judgments of sentence in part, and remand the cases of Hernandez and Schueg for
resentencing proceedings consistent with this opinion.
41

Some
Defendants
have
sought,
pursuant to Rule 28(i), to adopt
sentencing
challenges
of
others.
However, general adoptions or ones
that concern an argument specific to
the arguing party will not be regarded,
if they are not accompanied by further
elaboration. We refuse to speculate on
how an issue applies to a Defendant‘s
sentencing judgment when he himself
has declined to do so.

A. Individual Challenges
1. Williams
Jabree Williams‘s Presentence Report (PSR) recommended a Guidelines range of 78-97
months in prison. The District Court sentenced him to 60 months, the mandatory
minimum, based upon time served for two prior state drug convictions. The Court also
recommended that the Bureau of Prisons credit Williams with an additional 13 months
for time served on a prior juvenile offense, and with approximately 28-29 months for
time in federal custody.
Williams raises only one issue on appeal. The District Court, he contends, should have
credited the 13-month term because 18 U.S.C. § 3584, as applied here, violates his Fifth
Amendment due process right. That provision states, in relevant part: ―if a term of
imprisonment is imposed on a defendant who is already subject to an undischarged
term of imprisonment, the terms may run concurrently or consecutively.‖ 18 U.S.C. §
3584(a). Williams argues that the statute draws an arbitrary distinction between
discharged and undischarged sentences. The Government counters that Williams did
not raise this issue contemporaneously, and that a reversible plain error did not occur.
54a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

Williams offers no reply, and there is no evidence suggesting preservation. Our review,
then, is for plain error.
We need not address the merits of Williams‘s constitutional challenge to § 3584. For
even if there was an error, it was not plain. A ―court of appeals cannot correct an error
pursuant to Rule 52(b) unless the error is clear under current law.‖ Olano, 507 U.S. at
734, 113 S.Ct. 1770. Every court of appeals to have considered the issue, or a related
challenge to U.S.S.G. § 5G1.3(b), has rejected Williams‘s argument. See United States v.
Lucas, 745 F.3d 626, 630-31 (2d Cir. 2014) (per curiam); United States v. Dunham, 295
F.3d 605, 610-11 (6th Cir. 2002); United States v. Otto, 176 F.3d 416, 418 (8th Cir.
1999). Only a district court, in another circuit, has held to the contrary. United States v.
Hill, 187 F. Supp. 3d 959, 965 (N.D. Ill. 2016). Given the balance of such authority, it
cannot be said the assumed error here is ― ‗obvious‘ or ‗clear under current law.‘ ‖
Vazquez, 271 F.3d at 100 (quoting Olano, 507 U.S. at 734, 113 S.Ct. 1770). We reserve
for another day our own views on the merits.
*375 2. Hernandez

At Hernandez‘s sentencing hearing, his attorney, Morris, stated that ―Mr. Hernandez
does not desire to address the court this morning. However, he did want me to say that
he wanted to thank his family for their support of him throughout this process, and so
we‘d have nothing further beyond that.‖ App. 289. The District Court accepted this
submission, and, after allowing the Government an opportunity to speak, announced its
judgment. It did not address Hernandez personally, and neither Morris nor the
Government raised Hernandez‘s right to allocution. See Fed. R. Crim. P. 32(i)(4)(a)(ii);
Green v. United States, 365 U.S. 301, 305, 81 S.Ct. 653, 5 L.Ed.2d 670 (1961) (plurality
opinion); id. at 307, 81 S.Ct. 653 (Black, J., dissenting).
Hernandez now argues that he is entitled to resentencing proceedings under United
States v. Adams, 252 F.3d 276 (3d Cir. 2001). The Government concedes the point, but it
asserts without elaboration that resentencing ―should be limited to providing
Hernandez the opportunity to allocute should he so desire.‖ Gov‘t Br. at 212. We
disagree. In Hill v. United States, 368 U.S. 424, 82 S.Ct. 468, 7 L.Ed.2d 417 (1962), the
Supreme Court cited Van Hook v. United States, 365 U.S. 609, 81 S.Ct. 823, 5 L.Ed.2d
821 (1961) (per curiam), for the appropriate remedy in direct appeals. 368 U.S. at 429
n.6, 82 S.Ct. 468. Van Hook is a one-sentence opinion, stating: ―The judgment is
reversed and the case remanded for resentencing in compliance with‖ Rule 32 and
Green. 365 U.S. at 609, 81 S.Ct. 823. This language provides no indication of a limited
remand, and our post-Adams cases have not applied such a remedy. See United States
v. Chapman, 915 F.3d 139, 147 (3d Cir. 2019); United States v. Paladino, 769 F.3d 197,
204 (3d Cir. 2014); United States v. Plotts, 359 F.3d 247, 251 (3d Cir. 2004). Hernandez
is entitled to a resentencing proceeding, with all its attendant considerations.42 See, e.g.,
Pepper v. United States, 562 U.S. 476, 131 S.Ct. 1229, 179 L.Ed.2d 196 (2011). However,
55a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

the District Court may, in its discretion, allow the Government to offer new evidence.
United States v. Dickler, 64 F.3d 818, 831-32 (3d Cir. 1995).
42

Because we reach this conclusion, we
address neither Hernandez‘s other
sentencing challenges nor the effect of
the mandatory minimum error at
Count II.

3. Kelly
Kelly brings several challenges to his concurrent life sentences. Five of those challenges
are unique to him. He asserts four procedural defects in the District Court‘s decision,
and he claims that the sentences were substantively unreasonable. We review
procedural-soundness and substantive-unreasonableness challenges for abuse of
discretion. United States v. Tomko, 562 F.3d 558, 567 (3d Cir. 2009) (en banc). Further,
―[w]e exercise plenary review of a district court‘s interpretation of the Sentencing
Guidelines and review its factual findings for clear error.‖ United States v. Welshans,
892 F.3d 566, 573 (3d Cir. 2018). Four of the issues are meritless. The other leaves
Kelly‘s sentence unaffected.
1. Dangerous-weapon enhancement. Kelly asserts that the District Court erred in
applying the two-level enhancement for possession of ―a dangerous weapon‖ in
connection with a controlled-substances offense. U.S.S.G. § 2D1.1(b)(1). We disagree.
The government can show possession simply ―by establishing that a temporal and
spatial relation existed between the weapon, the drug trafficking activity, and the
defendant.‖ United States v. Napolitan, 762 F.3d 297, 309 (3d Cir. 2014) (internal
quotation marks omitted). If it does so, the burden shifts to the defendant to show that
―it is clearly improbable *376 that the weapon was connected with the offense.‖
U.S.S.G. § 2D1.1 cmt. n.11. Here, Cordaress Rogers testified that Kelly supplied drugs
to numerous younger dealers and helped to introduce guns to the South Side, that a lot
of people had guns, and that guns were stashed on the blocks. The prevalence of
firearms was also described in other testimony. This evidence establishes the requisite
nexus, and Kelly gives no indication of clear improbability.
2. Organizer or leader increase. Kelly contends that the District Court erred in applying
a four-level increase for being ―an organizer or leader of a criminal activity that
involved five or more participants.‖ U.S.S.G. § 3B1.1(a). When determining whether to
apply this enhancement, a court should consider, among other things, ―the nature of
participation in the commission of the offense, ... the degree of participation in planning
or organizing the offense, [and] the nature and scope of the illegal activity.‖ U.S.S.G. §
3B1.1 cmt. n.4. As just noted, the evidence indicated that Kelly supplied a substantial
56a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

amount of crack to the younger generation of street-level dealers, associated with other
key suppliers such as Cruz and Hernandez, and helped to introduce guns into the South
Side-Parkway rivalry. In this light, we cannot say the District Court clearly erred in
imposing the enhancement.
3. Calculation of criminal-history score. Kelly next contests his classification as a career
offender for purposes of his criminal-history category. Under the Guidelines, a
defendant is a career offender if he ―has at least two prior felony convictions of either a
crime of violence or a controlled substance offense.‖ U.S.S.G. § 4B1.1(a). An offense
committed before the age of 18 may qualify ―if it is classified as an adult conviction
under the laws of the jurisdiction in which the defendant was convicted.‖ U.S.S.G. §
4B1.2 cmt. n.1. Kelly argues that one of his predicate convictions, a November 1994
conviction in New York state court for attempted murder, was not so classified. The
District Court found that it was, based largely on a ―Sentence & Commitment‖ form of
the New York Supreme Court, Bronx County.
This finding was not clearly erroneous. As the District Court pointed out, on the form
there were two options after the line ―The defendant having been.‖ Gov‘t Supp. App.
165. One was ―convicted of the crime(s) of‖; the other, ―adjudicated a Youthful
Offender.‖ The former was checked, suggesting Kelly‘s conviction was the same as that
for an adult. At the bottom of the form was written ―YO denied.‖ The District Court
reasonably inferred that this meant ―youthful offender denied.‖ Kelly App. 518. Finally,
simply because Kelly was marked a ―Juvenile Offender‖ on the form is not, under
applicable New York law, indicative of a non-adult conviction. See In re Raymond G., 93
N.Y.2d 531, 693 N.Y.S.2d 482, 715 N.E.2d 486, 488 (1999); Matter of Vega, 47 N.Y.2d
543, 419 N.Y.S.2d 454, 393 N.E.2d 450, 452-53 (1979).
4. Use-of-violence enhancement. Kelly points out that the District Court failed to
consider his objection to the two-level enhancement under U.S.S.G. § 2D1.1(b)(2). The
Government essentially concedes the point, arguing only that the District Court
addressed Kelly‘s use of violence when it rendered its decision. But, of course, the
sentencing judge must make ―an individualized assessment based on the facts
presented.‖ Gall v. United States, 552 U.S. 38, 50, 128 S.Ct. 586, 169 L.Ed.2d 445
(2007). Nevertheless, because we reject Kelly‘s other procedural challenges, this error
does not affect his total offense level.
5. Substantive reasonableness. ―[I]f the district court‘s sentence is procedurally sound,
we will affirm it unless *377 no reasonable sentencing court would have imposed the
same sentence on that particular defendant for the reasons the district court provided.‖
Tomko, 562 F.3d at 568. In rendering its judgment, the District Court said: ―[Kelly‘s]
not here for an isolated event, he‘s here for a decade-long conspiracy that involved
multiple episodes of violence and harm to innocen[ts] in the community .... The
defendant was at the core of this enterprise and these violent acts.‖ Kelly App. 528. The
57a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

District Court noted Kelly‘s ―involve[ment] in drug and gang activity from a very young
age.‖ Kelly App. 528. It observed that ―[h]e was a leader of the gang ... and was a
participant and present at many of the violent activities that occurred here.‖ Kelly App.
528. A reasonable jurist easily could have imposed the life sentences the District Court
did.
4. Schueg
Schueg‘s challenges to his concurrent 165-month sentences all relate to the assessment
of fines and costs. After stating simply that Schueg ―has the ability to pay a fine,‖ the
District Court ordered that he, together with other defendants, pay $6,500 in restitution
under the Mandatory Victims Restitution Act (MVRA). Schueg App. 63-64. It also
ordered payment of the special assessment under 18 U.S.C. § 3013(a)(2)(A), and of
certain costs of prosecution, including $13,948.76 for the compensation of York police
officers who testified at trial. Although Schueg challenges the MVRA and police
compensation orders on substantive grounds, he also, as a threshold matter, contests
the District Court‘s finding of an ability to pay. The PSR found that Schueg lacked such
an ability, and he raised the issue in his sentencing memorandum.
Under the MVRA, a district court must ―specify in the restitution order the manner in
which, and the schedule according to which, the restitution is to be paid,‖ after
considering the defendant‘s ―financial resources and other assets,‖ projected income,
and ―financial obligations.‖ 18 U.S.C. § 3664(f)(2). We have interpreted this provision
loosely, requiring only that ―the record evidence[ ] a court‘s consideration of the
defendant‘s financial situation,‖ though ―express findings‖ need not be made. United
States v. Lessner, 498 F.3d 185, 202 (3d Cir. 2007). Nevertheless, in this case, we cannot
find in the record any consideration of Schueg‘s financial condition. There was
testimony regarding a denial of financial aid on a college application, and gifts that
Schueg gave to his sister‘s children. None of that, however, goes to his ability to pay at
the time of sentencing. While the District Court did specify a payment schedule, there is
no indication where the Court determined Schueg had the ability to fulfill that
schedule—especially given the PSR‘s finding and Schueg‘s objection in his sentencing
memorandum. We will, therefore, vacate the District Court‘s judgment of sentence as it
relates to the assessment of restitution, fines, and costs, and remand for consideration
of Schueg‘s ability to pay.
5. Atkinson
Atkinson contests the District Court‘s application of a two-level enhancement for
obstructing the administration of justice. To be eligible for that increase, a defendant
must (as relevant here) have ―willfully ... attempted to obstruct or impede[ ] the
administration of justice with respect to the ... sentencing of the instant offense of
58a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

conviction.‖ U.S.S.G. § 3C1.1. While Atkinson was in prison awaiting sentencing, he
allegedly stabbed Carl Hodge, a fellow prisoner, multiple times while the latter was in
the shower. The proximate cause of the episode, according to Hodge‘s testimony at
Cruz‘s sentencing hearing, was that Hodge came into possession of a *378 cellphone
Hernandez was using for ongoing illegal activities: bribing prison guards, selling drugs,
and arranging a murder. Hodge began to share the phone‘s contents with the
Government. Cruz and Atkinson became suspicious, leading to the assault.
Atkinson does not dispute Hodge‘s testimony. He argues, rather, that even if he had a
motive to harm Hodge because of suspected cooperation, he could not reasonably have
believed that Hodge would testify against him at sentencing. See United States v.
Galaviz, 687 F.3d 1042, 1043 (8th Cir. 2012). Section 3C1.1 does not demand such a
standard. Testimony at sentencing is only one means Hodge could potentially have
disadvantaged Atkinson‘s legal position. As the facts show, Hodge was cooperating with
regard to contemporaneous events, disclosing potentially prejudicial material to the
Government. To demand that Atkinson reasonably believed Hodge would testify against
him is unduly limiting and beyond the text of § 3C1.1. ―[T]he administration of justice
with respect to‖ sentencing encompasses more than witness testimony.
>From that perspective, Atkinson‘s enhancement must remain. His ―instant offense‖
was among other things RICO conspiracy, and Hodge was suspected of (and indeed was)
revealing to the Government information related to ongoing concerted illicit activities of
at least Hernandez, Cruz, and Atkinson. That goes directly to the offense of which
Atkinson was convicted and awaiting sentencing. The District Court, then, did not
clearly err in finding a nexus between the attack and Atkinson‘s pending legal
proceedings.
B. Collective Challenges
1. Drug Quantity
Rice, Eatmon, and Kelly challenge the District Court‘s drug-quantity attributions
pursuant to the Guidelines‘ relevant-conduct provision.43 See U.S.S.G. §§ 1B1.3(a)(1)(B),
2D1.1(a). Our review is for clear error. United States v. Perez, 280 F.3d 318, 352 (3d Cir.
2002). ―[W]e permit some degree of estimation in drug conspiracy cases because the
government usually cannot seize and measure all the drugs that flow through a large
drug distribution conspiracy.‖ United States v. Diaz, 951 F.3d 148, 159 (3d Cir. 2020)
(internal quotation marks omitted). Nevertheless, information used for sentencing
―must have ‗sufficient indicia of reliability to support its probable accuracy.‘ ‖ United
States v. Miele, 989 F.2d 659, 663 (3d Cir. 1993) (quoting U.S.S.G. § 6A1.3(a)).
43

Villega also seeks to challenge his
offense level on this ground, pointing
59a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

out that the District Court did not rule
on his objections regarding drug
quantity, a dangerous-weapon enhancement, and relevant conduct for the
RICO conspiracy. But there is good
reason for that: Villega‘s trial counsel
and the Government agreed, and
represented to the District Court at the
sentencing hearing, that the baseline
would be an offense level of 37, which,
with a criminal history category of VI,
resulted in a Guidelines range of 360
months to life imprisonment. Villega‘s
counsel thereafter raised no objections
to the calculation, and the District
Court applied no additional enhancements. The ultimate sentence was
below the agreed-upon range. Contrary
to Villega‘s representations on appeal,
it is clear that he waived any
challenges to his offense level. See, e.g.,
United States v. Ward, 131 F.3d 335,
342-43 (3d Cir. 1997).

Rice‘s PSR recommended a base offense level of 30, due to a drug-quantity attribution of
280-840 grams of crack. See U.S.S.G. § 2D1.1(c)(5). The District Court adopted this
recommendation based upon the findings of the jury. Although the jury‘s findings were
on a conspiracy-wide basis, the District Court could also, by a preponderance of the
evidence, have incorporated those findings consistent with the *379 relevant-conduct
standard. See Collado, 975 F.2d at 995.
As remarked above, Rogers testified that in the conspiracy‘s early years, he, Atkinson,
Eatmon, and Rice all sold crack they received from Hernandez and Kelly. Rogers agreed
that they were ―essentially getting the same quantities or similar quantities,‖ App.
3544-45, and he estimated that in this time he received approximately 1 kilogram of
crack from both Hernandez and Kelly. Further, in around 2006-2007, when those
suppliers were imprisoned, Rogers said that he, Atkinson, Eatmon, Sistrunk, and Rice
continued to sell drugs together, and that they mutually facilitated each other‘s drug
dealing. Rice does not dispute this testimony, and other evidence indicates his
continued involvement in the conspiracy in the years thereafter. The District Court did
not clearly err in its attribution.
The same goes for Eatmon. He received a base offense level of 38, on an attribution of
28 kilograms or more of crack. Rogers testified that for about a year between 2006 and
60a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

2007, he would bring back from New York 500 to 1000 grams of crack ―[e]very couple of
days.‖ App. 3573. He agreed that he distributed, and that he saw Eatmon and others
distribute, ―many kilos of crack‖ over that time. App. 3575. Further, Darvin Allen
testified that around that same time, for approximately one to two years, he received
from Eatmon about 14 grams of crack a week. Eatmon indicates nothing in the record to
doubt the reliability of this testimony. The attribution of 28 kilograms or more was not
clear error.
Finally, Kelly‘s challenge fails on a similar basis. His base offense level, like Eatmon‘s,
was 38, thanks to an attribution of 28 kilograms or more of crack. Rogers testified that
he received approximately 1 kilogram of crack from each of Hernandez, Cruz, and Kelly
in the years after 2002, and, as just noted, he said that Atkinson, Eatmon, and Rice all
received a similar amount from at least Hernandez and Kelly. There was also testimony
from a high-level South Side supplier, who said that in these years he moved 500 grams
to 1 kilogram of crack a week, including deliveries to Cruz and Hernandez. Further,
Rogers testified that by 2012, Kelly was present when he paid Hernandez for crack that
had been fronted. This indicates Kelly‘s continued active participation in the conspiracy.
Finally, as mentioned above, there was evidence that Kelly continued to associate with
Cruz and Hernandez, and supply crack even up to the time of the initial indictment in
March 2014. Given this longitudinal evidence of Kelly‘s twelve-year participation in the
highest levels of the conspiracy, the indications of persistent drug-dealing activity, and
the testimony regarding the amounts involved, we cannot say the District Court clearly
erred in its attribution.
2. Body-Armor Enhancement
During his testimony regarding the early years of the conspiracy, Rogers said that he
saw Hernandez and Kelly wearing bulletproof vests on multiple occasions at Maple and
Duke Streets. Under the Guidelines, a defendant ―convicted of a drug trafficking crime
or a crime of violence‖ may be eligible for a two- or a four-level increase to his offense
level based on the use of body armor in the commission of the offense. U.S.S.G. §
3B1.5(1). The two-level increase applies when ―the offense involved the use of body
armor.‖ U.S.S.G. § 3B1.5(2)(A). The four-level one applies if ―the defendant used body
armor during the commission of the offense, in preparation for the offense, or in an
attempt to avoid apprehension for the offense.‖ U.S.S.G. § 3B1.5(2)(B). Kelly received
the latter enhancement; Atkinson and Eatmon the former.
*380 Kelly asserts that Rogers‘s testimony does not provide a sufficient nexus between
the wearing of the body armor and the commission of the offense. The commentary to §
3B1.5 defines ―use‖ in part as ―active employment in a manner to protect the person
from gunfire.‖ U.S.S.G. § 3B1.5 cmt. n.1. Kelly was said to have worn body armor
multiple times on Maple and Duke Streets—the eponymous location of the primary
crew of drug traffickers on the South Side. Further, Rogers‘s testimony was not an
61a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

offhand remark; it came in the context of a description of the conspiracy‘s early years,
when Kelly and Hernandez began supplying crack to Rogers, Atkinson, Eatmon, and
Rice. Kelly, Hernandez, and Cruz would be ―standing there on Duke Street, so you
would just buy the drugs from them and then go sell them on your own.‖ App. 3546. It
was also when Kelly and Hernandez helped to introduce guns to the South Side, and
the South Side-Parkway rivalry escalated from fistfights to gunfights. There is,
therefore, a spatial and temporal nexus between Kelly‘s use of the body armor and the
commission of the conspiracy offense. Application of the four-level enhancement was not
clear error.
This same evidence supports the application § 3B1.5(2)(A) to Atkinson and Eatmon. We
apply to the Guidelines the ordinary principles of statutory interpretation. See, e.g.,
United States v. James, 952 F.3d 429, 433, 439 (3d Cir. 2020). The provisions here are
notably different: while the four-level enhancement concerns the actions of the
defendant, the two-level one concerns the nature of the offense. The latter—which
encompasses ―the offense of conviction and all relevant conduct,‖ U.S.S.G. § 3B1.5 cmt.
n.1 (citing U.S.S.G. § 1B1.1 cmt. n.1(I))—need only ―involve[ ]‖ the use of body armor.
According to Rogers‘s testimony, Kelly and Hernandez‘s use of the body armor occurred
at the time Atkinson and Eatmon were being supplied by them. Eatmon protests he had
not joined the conspiracy by this point, but he presents no evidence to question the
District Court‘s judgment.
3. Costs of Prosecution
Seven Defendants—Cruz, Hernandez, Villega, Kelly, Schueg, Atkinson, Sistrunk, and
Eatmon—challenge the District Court‘s assessment of a fine to reimburse the City of
York for the overtime wages paid to York police officers who testified at trial. The
Government concedes the issue. We will, therefore, vacate this aspect of the challengers‘
judgments of sentence.
VII. Conclusion
For the foregoing reasons, we will affirm the Defendants‘ judgments of conviction, and
the judgments of sentence of Williams and Rice. We will vacate Hernandez‘s judgment
of sentence in full, and Schueg‘s judgment of sentence as to the assessment of
restitution, fines, and costs. We will remand those two cases for resentencing
proceedings consistent with this opinion. We will also vacate the judgments of sentence
of Cruz, Villega, Kelly, Atkinson, Sistrunk, and Eatmon as to the police overtime costs.

62a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

RESTREPO, Circuit Judge, dissenting.
The District Court issued a sua sponte order closing the courtroom for jury selection.
Appellants were eventually convicted on various counts related to their involvement in
a local street gang and were sentenced to prison. Among other issues they raise on
appeal, Appellants argue that they are entitled to a new trial because of the courtroom
closure. Due to the deep roots the right to a public trial has in our history and its
critical importance to the functioning of our criminal justice system, I would reverse
Appellants‘ convictions and remand for a new trial. I respectfully dissent.
*381 I.

Following an extensive investigation conducted by the United States Bureau of Alcohol,
Tobacco, Firearms and Explosives, a grand jury returned a six-count indictment against
twenty-one defendants. From 2002 to 2014, the defendants were alleged to have
participated in a racketeering conspiracy, a drug trafficking conspiracy, and drug
trafficking while involved with a York, Pennsylvania street gang. After nine defendants
entered into plea agreements with the Government, twelve went to trial. Ten of these
defendants (collectively, ―Appellants‖) now appeal their convictions and sentences
ranging from sixty months to life imprisonment.
On the eve of the trial, the District Court issued an order closing the courtroom for the
entirety of jury selection. In full, the order states:
AND NOW, on this 18th day of September 2015, IT IS HEREBY ORDERED THAT
due to courtroom capacity limitations, only (1) court personnel, (2) defendants, (3)
trial counsel and support staff, and (4) prospective jurors shall be allowed into the
courtroom during jury selection. No other individuals will be present except by
express authorization of the Court.
App. 10 (bold in original). Neither the Government nor the defendants requested this
order, and the District Court did not seek their input. The Court closed the courtroom to
the public without determining whether it was necessary or considering any
alternatives. None of the defendants objected to the order, and voir dire then took place
for two days.
II.
We must now decide whether to correct an erroneous courtroom closure despite
Appellants‘ failure to object. As a preliminary matter, it is imperative to understand the
contours of the constitutional right in question.
63a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

The Sixth Amendment provides that ―the accused shall enjoy the right to a speedy and
public trial‖—and the Supreme Court has long recognized the importance of the public
trial right for the accused and the broader community. See, e.g., In re Oliver, 333 U.S.
257, 68 S.Ct. 499, 92 L.Ed. 682 (1948). ―[T]he Sixth Amendment right to a public trial
extends to the voir dire of prospective jurors.‖ Presley v. Georgia, 558 U.S. 209, 213, 130
S.Ct. 721, 175 L.Ed.2d 675 (2010) (per curiam); see also Press-Enterprise Co. v. Superior
Court, 464 U.S. 501, 508, 104 S.Ct. 819, 78 L.Ed.2d 629 (1984) (noting that ―the
accused‘s right [to a fair trial] is difficult to separate from the right of everyone in the
community to attend the voir dire‖ under the First Amendment). As a part of the public
trial right, criminal defendants and the public at large are entitled to open proceedings.
The public trial guarantee is deeply rooted in our common law heritage. In England,
early court proceedings required public access to ―moots,‖ which later evolved into
juries, consisting of ―the freemen of the community.‖ See Press-Enterprise, 464 U.S. at
505, 104 S.Ct. 819. In the eleventh century, the jury began to transform into a small
group of individuals that represented the community, but ―the public character of the
proceedings, including jury selection, remained unchanged.‖ Id. at 506, 104 S.Ct. 819.
As early as the sixteenth century, jurors in England were selected ―openlie in the
presence of the Judges, the Justices, the enquest, the prisoner, and so many as will or
can come so neare as to heare it.‖ Id. at 507, 104 S.Ct. 819 (emphasis in original)
(quoting Thomas Smith, De Republica Anglorum 96 (1565) (Alston ed. 1906)).
The presumption of public jury selection ―carried over into proceedings in colonial *382
America.‖ Id. at 508, 104 S.Ct. 819 (discussing accounts on the need for bystanders at
trials following the Boston Massacre). Many of the thirteen colonies enacted statutes
requiring jury selection to occur in open court. See id. (―Public jury selection ... was the
common practice in America when the Constitution was adopted.‖). For instance, a 1773
statute in North Carolina required that court clerks,
write the Names of all Petit Jurors appearing, on Scrolls or Pieces of Paper, which
shall be put into a Box; and on every Issue in every Suit where it is not otherwise
agreed by Consent, a Child under Ten Years old, in open Court, shall draw out of the
said Box Twelve of the said Scrolls or Pieces of Paper.
James Davis, Complete Revisal of All the Acts of Assembly, of the Province of NorthCarolina, Now in Force & Use 549 (1773) (emphasis added). Delaware employed a
similar system in which prospective jurors‘ names were placed in a box until ―some
indifferent person, by the direction of the court, may and shall, in open court, draw out
twelve of the said pieces of parchment or paper.‖ 2 Laws of the State of Delaware 1073
(Samuel & John Adams eds. 1797) (emphasis added). These are just two examples, as
open voir dire proceedings were the practice at the time of our Nation‘s founding.
The Sixth Amendment enshrined the presumption of public access in the Constitution.
The Founding Fathers believed that public court proceedings provided safeguards
64a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

integral to the nascent republic. At the Constitutional Convention, broad agreement
existed regarding the jury trial‘s importance as ―a valuable safeguard to liberty ... [or]
the very palladium of free government.‖ The Federalist No. 83, at 461 (Alexander
Hamilton) (P.F. Collier ed., 1901). And jury selection was viewed as a ―double security‖
against corruption that would require a person to ―corrupt both the court and the jury.‖
Id. at 463.
Enunciating ―revolution principles‖ under the pseudonym ―Novanglus,‖ John Adams
struck similar themes when he explained that ―draw[ing] [jurors] by chance out of a box
in open town meeting‖ best ―secured against a possibility of corruption of any kind ...
having seen with their own eyes, that nothing unfair ever did or could take place.‖ John
Adams, Novanglus; or, A History of the Dispute with America from Its Origin, in 1754,
to the Present Time, The Revolutionary Writings of John Adams 152, 199 (C. Bradley
Thompson, ed., 2000) (emphasis added). These sentiments were explicitly incorporated
into the Constitution in the language of the Sixth Amendment.
It is thus no surprise that the Supreme Court classifies courtroom closures ―as a
structural error‖ that generally ―entitl[es] the defendant to automatic reversal.‖ 1 *383
Weaver v. Massachusetts, ––– U.S. ––––, 137 S. Ct. 1899, 1905, 198 L.Ed.2d 420 (2017)
(plurality opinion). Courts usually reverse criminal convictions tainted by a structural
error because they affect ―the framework within which the trial proceeds,‖ thus
―infect[ing] the entire trial process‖ and undermining the ultimate determination of
―guilt or innocence.‖ Neder v. United States, 527 U.S. 1, 8–9, 119 S.Ct. 1827, 144
L.Ed.2d 35 (1999) (citations and internal quotation marks omitted). An open courtroom
during jury selection is fundamental to protecting defendants‘ right to a jury free from
prejudice and ensuring public confidence in the administration of justice. See PressEnterprise, 464 U.S. at 508, 104 S.Ct. 819; United States v. Negrón-Sostre, 790 F.3d 295,
301 (1st Cir. 2015). Accordingly, it was a structural error to close the courtroom during
voir dire.
1

There are limited instances in which
closing a courtroom is not structural
error. A judge may order a closure
based on findings that specifically
identify ―higher values‖ that must be
preserved. Waller v. Georgia, 467 U.S.
39, 45, 104 S.Ct. 2210, 81 L.Ed.2d 31
(1984) (quoting Press-Enterprise, 464
U.S. at 510, 104 S.Ct. 819); see also
Weaver, 137 S. Ct. at 1909 (―[A] judge
may deprive a defendant of his right to
an open courtroom by making proper
factual findings in support of the
decision to do so.‖). Trial courts are
65a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

required to ―consider alternatives to
closure even when they are not offered
by the parties.‖ Presley, 558 U.S. at
214, 130 S.Ct. 721.
The District Court did not consider
alternative options or make any factual
findings in support of its order. The
Government points to comments the
District Court made on the number of
people in the courtroom. However,
these comments do not support the
proposition that the District Court
made the required findings because
they came days after the order and are
not linked in any discernible way to the
closure.

III.
There are instances in which a structural error does not automatically lead to a
reversal. In Weaver, the Supreme Court recently examined an erroneous courtroom
closure on collateral review. Due to space limitations, ―an officer of the court excluded
from the courtroom any member of the public who was not a potential juror.‖ Weaver,
137 S. Ct. at 1906. Citing finality concerns, the plurality concluded that the petitioner
did not demonstrate prejudice as required for a new trial under Strickland v.
Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). See Weaver, 137 S. Ct.
at 1912–14. Although the Weaver plurality cautioned courts not to assume that public
trial violations always require reversal in a collateral proceeding, it did not address the
appropriate remedy when the error is raised for the first time on direct review.
Here, Appellants did not object to the District Court‘s closure order or otherwise
preserve their claim during the trial. We thus review the order for plain error. Fed. R.
Crim. P. 52(b). Appellants must satisfy four prongs under plain error review. See United
States v. Olano, 507 U.S. 725, 736, 113 S.Ct. 1770, 123 L.Ed.2d 508 (1993). They must
show (1) that there was an error, (2) that was ―clear or obvious,‖ and (3) it must have
impacted their ―substantial rights.‖ Puckett v. United States, 556 U.S. 129, 135, 129
S.Ct. 1423, 173 L.Ed.2d 266 (2009). The third prong generally ―means that the error
must have been prejudicial,‖ meaning ―[i]t must have affected the outcome of the
district court proceedings.‖ Olano, 507 U.S. at 734, 113 S.Ct. 1770. Fourth, reviewing
courts have discretion to remedy a forfeited error if it ―seriously affect[ed] the fairness,
integrity or public reputation of judicial proceedings.‖ Id. at 736, 113 S.Ct. 1770
(citation and internal quotation marks omitted). Only the third and fourth prongs are
66a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

relevant for our purposes because the parties agree that the closure was a clear error.
Below, I will consider these prongs in turn.
A.
Olano‘s substantial rights prong typically requires a showing of prejudice. Puckett, 556
U.S. 129, 129 S.Ct. 1423. ―To satisfy this ... condition, the defendant ordinarily must
show a reasonable probability that, but for the error, the outcome of the proceeding
would have been different.‖ Rosales-Mireles v. United States, ––– U.S. ––––, 138 S. Ct.
1897, 1904–05, 201 L.Ed.2d 376 (2018) (citation and internal quotation marks omitted).
But ―[t]here may be a special category of forfeited errors that can be corrected
regardless of their effect on the outcome.‖ Olano, 507 U.S. at 735, 113 S.Ct. 1770. The
Majority declines to address whether *384 an erroneous courtroom closure fits this
―special category‖ under the third Olano prong. Majority Op. at 341 (noting that it need
not decide because it declines to exercise discretion under the fourth prong). I disagree
and would hold that the specific structural error at issue here fits the special category of
errors that must be corrected even without a particularized showing of prejudice and
thus satisfies Olano‘s third prong.
The Supreme Court has made clear that structural errors generally result in the
reversal of a conviction because they ―are so intrinsically harmful as to require
automatic reversal (i.e., ‗affect substantial rights‘) without regard to their effect on the
outcome.‖ Neder, 527 U.S. at 7, 119 S.Ct. 1827. Requiring defendants to make a specific
showing of prejudice when claiming a structural error on direct review would force them
to engage in a ―speculative inquiry into what might have occurred in an alternate
universe.‖ United States v. Gonzalez-Lopez, 548 U.S. 140, 148–50, 126 S.Ct. 2557, 165
L.Ed.2d 409 (2006) (describing why it is ―unnecessary to conduct an ineffectiveness or
prejudice inquiry‖ to establish a violation to the ―right to counsel of choice‖).
The District Court‘s closure of the courtroom during voir dire is the prototypical
constitutional error that is impossible to measure. ―Jury selection is the primary means
by which a court may enforce a defendant‘s right to be tried by a jury free from ethnic,
racial, or political prejudice ..., or predisposition about the defendant‘s culpability.‖
Gomez v. United States, 490 U.S. 858, 873, 109 S.Ct. 2237, 104 L.Ed.2d 923 (1989).
Public jury selection proceedings impact the way in which potential jurors respond to
questions about their past experiences and the types of questions attorneys ask them.
See Negrón-Sostre, 790 F.3d at 305–06.
The difficulty in determining the level of prejudice is precisely why structural errors are
presumed to affect defendants‘ substantial rights. See Neder, 527 U.S. at 7, 119 S.Ct.
1827. Contrary to the Majority, I do not view the conclusion that the District Court‘s
courtroom closure affected Appellants‘ substantial rights as a ―doctrinal leap.‖ See
67a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

Majority Op. at 341. It would be illogical to classify an error as structural because it
affects substantial rights but then conclude that it did not affect defendants‘ substantial
rights for purposes of Olano‘s third prong. Given the difficulty of measuring prejudice
arising from a public trial violation and the importance of jury selection in protecting
criminal defendants, this Court should presume prejudice and hold that Appellants
have satisfied the substantial rights prong.
B.
The District Court‘s order also undermines the fairness, integrity, and public reputation
of the trial proceedings, thus satisfying Olano‘s fourth prong. As explained above, open
voir dire is key to ensure that unprejudiced jurors are ultimately selected to serve on
juries. It also serves as a check on judicial abuse against defendants caught up in the
criminal justice system. See United States v. Lnu, 575 F.3d 298, 305 (3d Cir. 2009)
(stating that the public trial right ―has always been recognized as a safeguard against
any attempt to employ our courts as instruments of persecution‖) (citation and internal
quotation marks omitted). Even in cases where there are no further constitutional
violations, open jury selection maintains the public‘s confidence in the system by
enhancing ―the appearance of fairness.‖2 *385 Press-Enterprise, 464 U.S. at 508, 104
S.Ct. 819; see also Waller, 467 U.S. at 46, 104 S.Ct. 2210 (stating that public trials
ensure that the ―judge and prosecutor carry out their duties responsibly‖ and
―discourages perjury‖).3
2

3

These fairness concerns are particularly relevant in light of the District
Court‘s handling of the Batson
challenge in chambers. Although I
agree with the Majority that the
resolution of the challenge in camera
was harmless, the District Court‘s
conduct is concerning because it
represents another instance in which
the Court limited access to jury
selection proceedings.
Concerns related to public confidence
in the proceedings are especially
relevant here given the local media
coverage into the case. See, e.g., Keith
Schweigert, York member of Southside
gang to serve 21 years on drug,
racketeering charges, Fox 43 (December
21,
2018,
11:24
AM),
68a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

https://fox43.com/2018/12/21/yorkmember-ofsouthside-gang-to-serve-21years-on-drug-racketeeringcharges/;
Christopher Dornblaser, Life in prison
for York City Southside gang leader,
York Dispatch (October 3, 2017, 8:03
PM),
https://www.yorkdispatch.com/story/ne
ws/2017/10/03/life-prison-york-citysouthside-gang-leader/729170001/.

The pivotal role that public proceedings play in our judicial system is precisely why
reviewing courts find it particularly problematic when trial judges themselves limit
access to courtrooms. See Weaver, 137 S. Ct. at 1913 (emphasizing that the ―closure
decision ... was made by court officers rather than the judge‖). It is also why trial judges
are responsible for considering alternatives to closure even if none are raised by the
parties. Presley, 558 U.S. at 214–15, 130 S.Ct. 721 (noting that trial courts must
consider alternatives given jury selection‘s importance ―to the adversaries [and] to the
criminal justice system‖) (citation and internal quotation marks omitted). As the
reviewing court, it is imperative that we correct the District Court‘s structural error
because it undermines the integrity and public reputation of criminal proceedings that
resulted in Appellants‘ convictions.
Instead, the Majority conducts a cost-benefit analysis to justify leaving the public trial
violation uncorrected. Majority Op. at 347 (declining remedial action because ―the
remedy is to be assessed relative to the costs of the error‖). This approach is foreign and
detrimental to our structural error jurisprudence.
The Majority first minimizes the impact of the error by pointing out that there is no
evidence anyone sought to access to the courtroom, that there is no indication of
wrongdoing by the District Court or the Government, and that transcripts of voir dire
were made available. Majority Op. at 345–47. The availability of transcripts does little
to mitigate the error because ―no transcript can recapture the atmosphere of the voir
dire, which may persist throughout the trial.‖ Gomez, 490 U.S. at 874–75, 109 S.Ct.
2237; see also United States v. Antar, 38 F.3d 1348, 1360 n.13 (3d Cir. 1994) (explaining
that ―the translation of a live proceeding to a cold transcript‖ misses ―some information,
concerning demeanor, non-verbal responses, and the like‖).
The other two factors the Majority mentions miss the point of structural errors like
public trial violations. Much of the Majority‘s analysis relies on cases that consider
errors reviewed for harmlessness. See Majority Op. at 344–45. At one point, the
Majority even posits that ―apart from cases of actual innocence, an altered outcome does
not in itself necessitate correction of the error.‖ Majority Op. at 345. The Majority
69a

United States v. Williams, 974 F.3d 320 (2020)
113 Fed. R. Evid. Serv. 1056

overlooks the critical fact that we do not review criminal trials with a structural error
for harmlessness because such trials ―cannot reliably serve its function as a vehicle for
determination of guilt or innocence, and no criminal punishment may be regarded as
fundamentally fair.‖ Arizona v. Fulminante, 499 U.S. 279, 310, 111 S.Ct. 1246, 113
L.Ed.2d 302 (1991) (citation and internal quotation marks omitted). Because public trial
violations corrupt the very mechanism used to determine guilt or *386 innocence, we
cannot measure the true costs of leaving the District Court‘s error uncorrected.
The Majority next focuses on the high costs of remedial action to correct the error.
Correcting the public trial violation would require reversal of Appellants‘ convictions,
which resulted from two-month long proceedings completed five years ago, and remand
for a new trial. The costs to remedy the District Court‘s error are indeed considerable. I
disagree, however, with the central role the Majority affords these costs in its plain
error analysis. The District Court committed a grave constitutional violation by
simultaneously violating twelve defendants‘ right to a public trial for the entirety of
jury selection. The nature of the error, not the cost of correcting it, must be the lodestar
of our consideration of a structural error on plain-error review. The District Court
―undermine[d] the structural integrity of the criminal tribunal itself‖ in a way that ―is
not amenable to harmless-error review‖—and the Majority allows this to stand. Vasquez
v. Hillery, 474 U.S. 254, 263–64, 106 S.Ct. 617, 88 L.Ed.2d 598 (1986). It is perverse to
weigh the costs of judicial efficiency against Appellants‘ constitutional rights when the
District Court undeniably committed structural error.
For the reasons stated above, I respectfully dissent. A balancing test or a cost-benefit
analysis is an improper and unjust method for determining whether to protect certain
fundamental constitutional rights. The public trial right is one of these fundamental
rights. It has deep roots in our Nation‘s history and is essential to the functioning of our
criminal justice system. I would therefore reverse Appellants‘ convictions and remand
for a new trial.

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

70a

Case: 17-3191

Document: 154

Page: 1

Date Filed: 11/10/2020

APPENDIX B

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______
Nos. 17-3191 & 17-3373
______
UNITED STATES OF AMERICA
v.
ROLANDO CRUZ, JR.
Appellant in No. 17-3191
MARC HERNANDEZ,
a/k/a Marky D.,
Appellant in No. 17-3373
______
(M.D. Pa. Nos. 1-14-cr-00070-004)
(M.D. Pa. Nos. 1-14-cr-00070-001)
______
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, ROTH and FISHER1, Circuit Judges.
______
SUR PETITION FOR REHEARING
WITH SUGGESTION FOR REHEARING EN BANC
______
The petition for rehearing filed by Appellants, Rolando Cruz, Jr. and Marc
Hernandez in the above-entitled case having been submitted to the judges who
participated in the decision of this Court and to all the other available circuit judges of the
circuit in regular active service, and no judge who concurred in the decision having asked
for rehearing, and a majority of the judges of the circuit in regular service not having
voted for rehearing, the petitions for rehearing by the panel and the Court en banc, are
denied.

1

Judges Roth and Fisher’s votes are limited to panel rehearing only.
71a

Case: 17-3191

Document: 154

Page: 2

Date Filed: 11/10/2020

BY THE COURT:
s/ D. Michael Fisher
Circuit Judge
Dated: November 10, 2020
cc:
G. Scott Gardner, Esq.
Peter Goldberger, Esq.
Jeremy B. Gordon, Esq.
Tieffa N. Harper, Esq.
Richard F. Maffett, Jr., Esq.
Terrence J. McGowan, Esq.
Daniel M. Myshin, Esq.
John F. Yaninek, Esq.
Andrew J. Shubin, Esq.
Michael A. Consiglio, Esq.
Jonathan W. Crisp, Esq.

72a

Case: 17-3586

Document: 186

Page: 1

Date Filed: 11/10/2020

APPENDIX C

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______
No. 17-3586
______
UNITED STATES OF AMERICA
v.
ROSCOE VILLEGA,
Appellant
______
(M.D. Pa. No. 1-14-cr-00070-003)
______
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, ROTH and FISHER1, Circuit Judges.
______
SUR PETITION FOR REHEARING
WITH SUGGESTION FOR REHEARING EN BANC
______
The petition for rehearing filed by Appellant, Roscoe Villega in the above-entitled
case having been submitted to the judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit in regular active service, and no
judge who concurred in the decision having asked for rehearing, and a majority of the
judges of the circuit in regular service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is denied.
BY THE COURT:
s/ D. Michael Fisher
Circuit Judge
Dated: November 10, 2020

1

Judges Roth and Fisher’s votes are limited to panel rehearing only.
73a

Case: 17-3586

Document: 186

Page: 2

Appeal No. 17-3586
United States v. Rolando Cruz, Jr.
Page 2
cc:
G. Scott Gardner, Esq.
Peter Goldberger, Esq.
Jeremy B. Gordon, Esq.
Tieffa N. Harper, Esq.
Richard F. Maffett, Jr., Esq.
Terrence J. McGowan, Esq.
Daniel M. Myshin, Esq.
John F. Yaninek, Esq.
Andrew J. Shubin, Esq.
Michael A. Consiglio, Esq.
Jonathan W. Crisp, Esq.

74a

Date Filed: 11/10/2020

Case: 17-3711

Document: 130

Page: 1

Date Filed: 11/24/2020

APPENDIX D

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______
No. 17-3711
______
UNITED STATES OF AMERICA
v.
EUGENE RICE,
also known as "B MOR"
EUGENE RICE, Appellant
______
(D.C. No. 1-14-cr-00070-011)
______
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, ROTH and FISHER1, Circuit Judges.
______
SUR PETITION FOR REHEARING
WITH SUGGESTION FOR REHEARING EN BANC
______
The petition for rehearing filed by Appellant, Eugene Rice in the above-entitled
case having been submitted to the judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit in regular active service, and no
judge who concurred in the decision having asked for rehearing, and a majority of the
judges of the circuit in regular service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is denied.

1

Judges Roth and Fisher’s votes are limited to panel rehearing only.

75a

Case: 17-3711

Document: 130

Page: 2

Date Filed: 11/24/2020

BY THE COURT:
s/ D. Michael Fisher
Circuit Judge
Dated: November 24, 2020
cc:
G. Scott Gardner, Esq
.Peter Goldberger, Esq.
Jeremy B. Gordon, Esq.
Tieffa N. Harper, Esq.
Richard F. Maffett, Jr., Esq.
Terrence J. McGowan, Esq.
Daniel M. Myshin, Esq.
John F. Yaninek, Esq.
Andrew J. Shubin, Esq.
Michael A. Consiglio, Esq.
Jonathan W. Crisp, Esq.

76a

